<html>
<title> - A REVIEW OF THE FISCAL YEAR 2022 BUDGET REQUEST FOR THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]




 
 A REVIEW OF THE FISCAL YEAR 2022 BUDGET REQUEST FOR THE DEPARTMENT OF 
                           HOMELAND SECURITY

=======================================================================


                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 17, 2021

                               __________

                           Serial No. 117-19

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

                                     

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                               __________
                               

                U.S. GOVERNMENT PUBLISHING OFFICE 
45-457 PDF               WASHINGTON : 2021                                
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            John Katko, New York
James R. Langevin, Rhode Island      Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana
J. Luis Correa, California           Michael Guest, Mississippi
Elissa Slotkin, Michigan             Dan Bishop, North Carolina
Emanuel Cleaver, Missouri            Jefferson Van Drew, New Jersey
Al Green, Texas                      Ralph Norman, South Carolina
Yvette D. Clarke, New York           Mariannette Miller-Meeks, Iowa
Eric Swalwell, California            Diana Harshbarger, Tennessee
Dina Titus, Nevada                   Andrew S. Clyde, Georgia
Bonnie Watson Coleman, New Jersey    Carlos A. Gimenez, Florida
Kathleen M. Rice, New York           Jake LaTurner, Kansas
Val Butler Demings, Florida          Peter Meijer, Michigan
Nanette Diaz Barragan, California    Kat Cammack, Florida
Josh Gottheimer, New Jersey          August Pfluger, Texas
Elaine G. Luria, Virginia            Andrew R. Garbarino, New York
Tom Malinowski, New Jersey
Ritchie Torres, New York
                       Hope Goins, Staff Director
                 Daniel Kroese, Minority Staff Director
                          Natalie Nixon, Clerk
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6

                                Witness

Hon. Alejandro N. Mayorkas, Secretary, United States Department 
  of Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................     9

                             For the Record

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Letter.........................................................    59
The Honorable Dan Bishop, a Representative in Congress From the 
  State of North Carolina:
  Charts.........................................................    26
The Honorable Andrew S. Clyde, a Representative in Congress From 
  the State of Georgia:
  Letters........................................................    43

                                Appendix

Questions From Chairman Bennie G. Thompson for Alejandro N. 
  Mayorkas.......................................................    61
Questions From Honorable Josh Gottheimer for Alejandro N. 
  Mayorkas.......................................................    61
Questions From Honorable Clay Higgins for Alejandro N. Mayorkas..    63
Question From Honorable Michael Guest for Alejandro N. Mayorkas..    64


 A REVIEW OF THE FISCAL YEAR 2022 BUDGET REQUEST FOR THE DEPARTMENT OF 
                           HOMELAND SECURITY

                              ----------                              


                        Thursday, June 17, 2021

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 8:30 a.m., via 
Webex, Hon. Bennie G. Thompson [Chairman of the committee] 
presiding.
    Present: Representatives Thompson, Jackson Lee, Langevin, 
Payne, Correa, Slotkin, Green, Clarke, Titus, Watson Coleman, 
Rice, Demings, Barragan, Luria, Malinowski, Torres, Katko, 
McCaul, Higgins, Guest, Bishop, Van Drew, Norman, Miller-Meeks, 
Harshbarger, Clyde, LaTurner, Meijer, Cammack, Pfluger, and 
Garbarino.
    Chairman Thompson. The Committee on Homeland Security will 
come to order. The committee is meeting today to review the 
fiscal year 2022 budget request for the Department of Homeland 
Security. Without objection, the Chair is authorized to declare 
the committee in recess at any point. The gentlewoman from New 
Jersey, Mrs. Watson Coleman, shall assume the duties of the 
Chair in the event I run into any technical difficulties.
    Before we begin, in light of the Speaker's revised pandemic 
policy announcement on Monday, I want to take the opportunity 
to commit to working with the Ranking Member to ensure orderly, 
and most importantly, safe return to in-person committee 
operations once the House is no longer in a declared public 
health emergency pursuant to House Resolution 8. The health and 
welfare of Members, witnesses, and staff should not be a 
political issue and I look forward to returning to in-person 
committee hearings soon.
    With that, I welcome the Members and our witness, the 
Secretary of Homeland Security, Alejandro Mayorkas, to today's 
hearing. Secretary Mayorkas testified before the committee in 
March regarding the way forward for the Department. We are 
pleased to have him here today to discuss DHS's 2022 budget 
request.
    Overall, the Biden administration is requesting $52 billion 
for DHS, roughly equal to the fiscal year 2021 funding level. 
Though there is always room for improvement, the 
administration's request would provide the Department with the 
resources necessary to meet its diverse and ever-evolving 
mission. The request prioritizes funding to improve Federal 
cybersecurity, respond to heightened domestic terrorism 
threats, and enhance border capabilities. It invests in 
creating a fairer and more equitable immigration system, 
preparing local communities for the effects of natural 
disasters, and revitalizing the Department's research and 
development capabilities. It further seeks to strengthen 
National resiliency in these critical areas. Many of these 
homeland security priorities were all but ignored by the last 
administration. I am pleased the Biden administration is giving 
these matters the attention and resources they demand.
    Members will have questions for you, Mr. Secretary, about 
areas where additional resources will be necessary, such as 
homeland security grants to States and local governments and 
cybersecurity funding given the recent cyber attacks. Be 
assured we will be engaging the administration on these funding 
needs as the appropriations process moves forward. Beyond the 
budget, the committee looks forward to working with the 
Department on a range of pressing legislative and policy 
matters. For example, we look forward to working with the 
administration completing the nomination process for the 
Department and seeing competent, Senate-confirmed individuals 
leading DHS's components, agencies, and offices once again.
    I urge you, Mr. Secretary, to help ensure these remaining 
nominees reflect the diversity of the Homeland Department you 
seek to secure. With respect to legislation, we are ready to 
help to bring about the transformational reforms you outlined 
for the TSA work force earlier this month. That means enacting 
H.R. 903, the Rights for TSA Workforce Act, to provide better 
pay and protections to a work force that has steadfastly 
protected our transportation systems even in the face of 
Government shutdowns and COVID.
    I also believe that we can come together to bolster 
cybersecurity. For 4 years, we struggled with a lack of 
consistent leadership from the White House on cybersecurity 
issues, and late last year, the chickens came home to roost as 
the Russians infiltrated Federal networks with a sophisticated 
supply chain attack. More recently, the country felt the 
effects of a series of ransomware attacks, including the attack 
on Colonial Pipeline. From Day 1, the Biden administration has 
sought to improve Federal network defenses, better manage 
supply chain risk, and work with the private sector to improve 
cybersecurity across critical infrastructure sectors. Much more 
must be done to provide funding, personnel, and authorities to 
address this growing threat.
    Increasingly, we see growing support for changes in the law 
to require reporting of certain ransomware attacks and cyber 
intrusions, particularly when the operation of most critical of 
critical infrastructure systems are implicated. With your 
partnership, Mr. Secretary, I think we can get there. I also 
think we can help shore up cybersecurity at the State and local 
level by ensuring dedicated grant funding is available as the 
committee seeks to do with H.R. 3138, the State and Local 
Cybersecurity Improvement Act.
    Beyond these two areas, with your engagement, we have an 
opportunity to put the Department on a far better footing in 
addressing its long-standing morale, acquisition, and 
management challenges in a comprehensive bill. With respect to 
policy matters, I want to commend the administration's release 
this week of the first-ever National Strategy for Countering 
Domestic Terrorism, a promise the President made on Day 1 in 
the wake of the events of January 6. We look forward to 
examining the strategy in both depth and hearing more detail 
from the DHS, the intelligence community, and the other 
agencies tasked with the important work and the bold plans they 
have to implement the strategic vision that President Biden has 
set forth.
    Finally, I would note that you join us today, Mr. 
Secretary, straight from your trip to Mexico this week where 
you engaged your counterparts on border security and 
facilitation matters. Your visit followed Vice President 
Harris' recent trip to Mexico and Central America to work with 
Government leaders on addressing root causes of migration. More 
remains to be done, but I am pleased the Biden administration 
is doing the hard work necessary to address the situation at 
the border for the long term, while prioritizing a more secure 
border and more humane immigration system today.
    Mr. Secretary, thank you for being here, and the committee 
looks forward to working with you on these critical issues and 
positioning DHS for success in all its missions.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             June 17, 2021
    I welcome the Members and our witness, Secretary of Homeland 
Security Alejandro Mayorkas. Secretary Mayorkas testified before the 
committee in March regarding the way forward for the Department, and we 
are pleased to have him here today to discuss DHS's 2022 budget 
request.
    Overall, the Biden administration is requesting $52 BILLION for 
DHS, roughly equal to the fiscal year 2021 funding level. Though there 
is always room for improvement, the administration's request would 
provide the Department with the resources necessary to meet its diverse 
and ever-evolving mission. The request prioritizes funding to improve 
Federal cybersecurity, respond to heightened domestic terrorism 
threats, and enhance border capabilities. It invests in creating a more 
fair and equitable immigration system, preparing local communities for 
the effects of natural disasters, and revitalizing the Department's 
research and development capabilities. It further seeks to strengthen 
National resiliency in these crucial areas. Many of these homeland 
security priorities were all but ignored by the last administration. I 
am pleased the Biden administration is giving these matters the 
attention and resources they demand.
    Members will have questions for you, Mr. Secretary, about areas 
where additional resources will be necessary, such as a homeland 
security grants to State and local governments and cybersecurity 
funding given recent cyber attacks. Be assured will be engaging the 
administration on these funding needs as the appropriations process 
moves forward. Beyond the budget, the committee looks forward to 
working with the Department on a range of pressing legislative and 
policy matters. For example, we look forward to the administration 
completing the nominations process for the Department and seeing 
competent, Senate-confirmed individuals leading DHS components, 
agencies, and offices once again.
    I urge you, Mr. Secretary, to help ensure those remaining nominees 
reflect the diversity of the homeland your Department seeks to secure. 
With respect to legislation, we are ready to help bring about the 
transformational reforms you outlined for the TSA workforce earlier 
this month. That means enacting H.R. 903, the ``Rights for TSA 
Workforce Act,'' to provide better pay and protections to this 
workforce that has steadfastly protected our transportation systems 
even in the face of Government shutdowns and COVID.
    I also believe that we can come together to bolster cybersecurity. 
For 4 years, we struggled with a lack of consistent leadership from the 
White House on cybersecurity issues, and late last year, the chickens 
came home to roost as the Russians infiltrated Federal networks with a 
sophisticated supply chain attack. More recently, the country has felt 
the effects of a series of ransomware attacks, including the attack on 
Colonial Pipeline. From Day 1, the Biden administration has sought to 
improve Federal network defenses, better manage supply chain risk, and 
work with the private sector to improve cybersecurity across critical 
infrastructure sectors. Much more must be done to provide funding, 
personnel, and authorities to address this growing threat.
    Increasingly, we see support growing for changes in the law to 
require the reporting of certain ransomware attacks and cyber 
intrusions--particularly when the operations of most critical of 
critical infrastructure systems are implicated. With your partnership, 
Mr. Secretary, I think we can get there.
    I also think we can help shore up cybersecurity at the State and 
Local level by ensuring dedicated grant funding is available as the 
committee seeks to do with H.R. 3138, the ``State and Local 
Cybersecurity Improvement Act.''
    Beyond these 2 areas, with your engagement, we have an opportunity 
to put the Department on a far better footing and address its long-
standing morale, acquisitions, and management challenges in a 
comprehensive bill. With respect to policy matters, I want to commend 
the administration's release this week of the first-ever National 
Strategy for Countering Domestic Terrorism--a promise the President 
made on Day 1 in the wake of the events of January 6. We look forward 
to examining this strategy in depth and hearing more details from the 
DHS, the intelligence community, and the other agencies tasked with 
this important work and the bold plans they have to implement the 
strategic vision that President Biden has set forth.
    Finally, I would note that you join us today, Mr. Secretary, 
straight from your trip to Mexico this week, where you engaged your 
counterparts on border security and facilitation matters. Your visit 
follows Vice President Harris' recent trip to Mexico and Central 
America to work with government leaders on addressing root causes of 
migration. More remains to be done, but I am pleased the Biden 
administration is doing the hard work necessary to address the 
situation at the border for the long term, while prioritizing a more 
secure border and more humane immigration system today.
    Mr. Secretary, thank you for being here, and the committee looks 
forward to working with you on these critical issues and positioning 
DHS for success in all its missions.

    Chairman Thompson. With that, I recognize the Ranking 
Member, the gentleman from New York, Mr. Katko for an opening 
statement.
    Mr. Katko. Thank you, Mr. Chairman. I am pleased that the 
committee is holding this hearing to examine President Biden's 
2022 budget request. Thank you, Mr. Secretary, for taking time 
to appear before the committee today.
    Mr. Secretary, a lot has happened in the homeland since you 
first appeared before this committee back in March. 
Unfortunately, a lot of it has been anything but encouraging. 
So, I look forward to talking about those challenges and how we 
can work together. I also hope to soon be conducting these 
hearings in person and I am very encouraged by Mr.--I am very 
encouraged to have these hearings in person, and I am also very 
encouraged that the Chairman has noted that that is going to be 
happening soon.
    Today, we have a full complement of Republican Members here 
who are ready to make room on the dais and work alongside our 
Democratic colleagues to conduct the important work of this 
committee in a bipartisan manner. Mr. Secretary, I don't envy 
the job you have today. The President has submitted the largest 
budget request by far in the history of the United States, $6 
trillion. Sadly, if this fiscally irresponsible budget is 
enacted, our children and our children's children, at a 
minimum, will be paying for it. A burden we should not place on 
future generations. Despite its high price tag, this budget 
request is out of touch with reality and more importantly, 
fails to prioritize many of today's most pressing homeland 
security threats.
    To give you a few examples, the Department of Homeland 
Security is asking for $76 million for electric vehicles, but 
there are no additional appropriations requested for new Border 
Patrol agents. CBP's net discretionary budget has a reduction 
of $280 million. Overall, the fiscal year 2022 budget asks for 
less than .5 percent of an increase for 3 key homeland security 
law enforcement components: Customs and Border Protection, ICE, 
and the Coast Guard. When proposed funding for pay increases is 
set aside, these 3 agencies show a decrease from their enacted 
levels in the fiscal year 2022 request.
    On the cyber front, the budget requests a 29 percent 
increase for the Department of Energy cyber activities, but 
only a 6 percent increase for CISA. The Biden budget simply 
fails to reflect the priorities that are critical to the 
defense of the homeland. So, I do not envy you having to come 
before the committee and defend this request on behalf of the 
administration.
    I honestly just don't know how it is possible to spend that 
much money on a grab bag full of far-left proposals, while 
somehow neglecting to adequately defend the homeland. 
Particularly, given the rash of major cyber attacks we have had 
recently. Mr. Secretary, unfortunately since you were last 
before the committee, the crisis at the border has not gotten 
better. In fact, it is trending worse. Just last week, Customs 
and Border Protection announced that over 180,000 migrants were 
encountered along the Southwest Border in the month of May 
alone, including 121,000 single adults, over 44,600 family 
units, and over 14,000 unaccompanied minors.
    We have also become numb to these numbers, but they 
continue to be staggering. The 180,000 number represents a 675 
percent increase. Let me say that again, a 675 percent increase 
from May 2020. Despite these numbers, by eliminating border 
wall funding, President Biden is allowing cartels, smugglers, 
criminals, and traffickers to continue exploiting the border. 
Sadly, neither the President nor the Vice President has even 
bothered to visit the border. In fact, in a recent interview, 
Vice President Harris laughed off the idea, even though in 
theory, President Biden has put her in charge of the crisis. 
This is not a laughing matter.
    One aspect of this crisis that has been highlighted and 
truly makes every State a border State, is the explosion of 
illegal drugs that have been streaming across the border. This 
particularly impacts my district in central New York and so 
many other communities across this country. According to 
Customs and Border Protection, drug seizures were up 18 percent 
in May from April 2021. Methamphetamine seizures were up 53 
percent. Heroin seizures were up and so was fentanyl. There is 
enough fentanyl that crossed the border this year already to 
kill every man, woman, and child in the United States. Try and 
digest that.
    Customs and Border Protection continues to see an alarming 
surge in fentanyl seizures at 56 percent higher than May 2021, 
than all of--through May 2021 through--let me rephrase that--
which are 56 percent higher through May of fiscal year 2021 
than all of fiscal year 2020. This means that more than 600 
pounds of deadly fentanyl was seized every month for the last 
12 months, and that is a record. In the last 6 months alone, 
Border Patrol seized 5,400 pounds of fentanyl, enough lethal 
doses to kill 1.2 billion people, or the entire population of 
the United States more than 3 times over.
    More than 90,000 Americans died of overdoses between 
September 2019 and September 2020. Last year, drug overdose 
deaths rose by more than 27 percent in New York State alone. 
That is completely unacceptable, and Homeland Republicans will 
continue pressuring the administration to reverse its 
disastrous Executive Orders and work with us on stronger border 
security measures.
    Mr. Secretary, the last time you were here, I stated that I 
did not want to be a bomb thrower, but wanted to work with you 
on solutions, and that offer remains. I have introduced several 
bipartisan bills including H.R. 2321 that would require 
Homeland Security and Federal partners to establish an agile 
plan to respond to irregular migration surges with benchmarks 
in place for activation. This legislation has received 
bipartisan support in the Senate, and a Senate companion is 
coming soon.
    I would ask that you look at this legislation, as I believe 
it is a common-sense approach to at least our front-line law 
enforcement in managing the crisis at the border. While the 
President's request makes modest increases to CISA's budget, 
CISA needs sustained, robust funding to carry out its mission 
and nimbly respond to evolving threats. In the past 6 months, 
CISA has worked to mitigate multiple significant cyber 
incidents facing Federal networks, as well as a sharp increase 
in devastating ransomware attacks on our Nation's critical 
infrastructure.
    Unfortunately, ransomware attacks are becoming a more 
pervasive threat and I feel that we, as a country, continue to 
fall further and further behind and we continue to play defense 
instead of being on offense when we are at our strongest. I am 
concerned that the President's budget included a sharper 
increase for other Federal cybersecurity efforts, but not CISA. 
Especially given the attacks CISA is tasked to defend.
    How can CISA be expected to continue to address these cyber 
threats head-on with such a small budget, given that the global 
financial impact of these cyber attacks amounts to over $1 
trillion annually? Try to digest that. Over $1 trillion 
annually is the cost of these cyber attacks and we are not 
really doing much about it with CISA.
    You have also acknowledged that CISA needs to be the 
quarterback for the .gov domain, and I appreciate that. I fully 
agree, but this budget fails to do that. I believe that CISA 
needs to be a $5 billion agency in 5 years, and that is not 
going to happen with meager increases like you propose in this 
budget. I look forward to hearing from the Secretary today, but 
like I said, I do not envy his job. This budget proposal 
manages to somehow be incredibly bloated, while at the same 
time, lack the funding we need to protect the homeland. Thank 
you, Mr. Chairman. I yield back.
    [The statement of Ranking Member Katko follows:]
                 Statement of Ranking Member John Katko
    Mr. Chairman, thank you for holding this hearing to examine 
President Biden's 2022 budget request, and thank you, Mr. Secretary, 
for taking time to appear before the committee today. Mr. Secretary, a 
lot has happened in the homeland since you first appeared before this 
committee back in March. Unfortunately, a lot of it has been anything 
but encouraging, so I look forward to talking about those challenges 
and how we can work together.
    I also hope to soon be conducting these hearings in person. I am 
encouraged that the Chairman has noted that will be happening soon.
    Today, we have a full complement of Republican Members here, who 
are ready to make room on the dais and work alongside our Democratic 
colleagues to conduct the important work of this committee in a 
bipartisan manner.
    Mr. Secretary, I don't envy the job you have today. The President 
has submitted the largest budget request, by far, in the history of the 
United States--$6 trillion dollars. Sadly, if this fiscally 
irresponsible budget is enacted, our children and our children's 
children at a minimum will be paying for it--a burden we should not 
place on future generations. And despite its high price tag, this 
budget request is out of touch with reality and more importantly fails 
to prioritize many of today's most pressing homeland security threats. 
To give you a few examples:
  <bullet> DHS is asking for $76 million for electric vehicles, but 
        there are NO additional appropriations requested for new Border 
        Patrol agents, and CBP's net discretionary budget has a 
        reduction of $280 million.
  <bullet> Overall, the fiscal year 2022 budget asks for less than half 
        a percent (or 0.3 percent) of an increase for three key DHS law 
        enforcement components, CBP, ICE, and the Coast Guard.
  <bullet> When proposed funding for pay increases is set aside, CBP, 
        ICE, and the Coast Guard show a decrease from their enacted 
        levels in their fiscal year 2022 requests.
  <bullet> On the cyber front, the budget requests a 29 percent 
        increase for the Department of Energy's cyber activities, but 
        only a 6 percent increase for CISA.
    The Biden budget simply fails to reflect the priorities that are 
critical to the defense of the homeland. And so, I do not envy you 
having to come before the committee and defend this request on behalf 
of the administration. I honestly just don't know how it is possible to 
spend that much money on a grab bag of far-left proposals, while 
somehow neglecting to adequately defend the homeland particularly given 
the rash of major cyber attacks we have seen recently.
    Mr. Secretary, unfortunately, since you were last before the 
committee, the crisis at the border has not gotten better. In fact, it 
is trending worse. Just last week, CBP announced that over 180,000 
migrants were encountered along the Southwest Border in the month of 
May alone, including 121,000 single adults; over 44,600 family units; 
and over 14,000 unaccompanied minors. We have almost become numb to 
these numbers, but they continue to be staggering--the 180,000 number 
represents a 675 percent increase, and let me say that again, 675 
percent increase from May 2020.
    Despite these numbers, by eliminating border wall funding, 
President Biden is allowing cartels, smugglers, criminals, and 
traffickers to continue exploiting the border.
    Sadly, neither the President nor the Vice President has even 
bothered to visit the border. In fact, in a recent interview, Vice 
President Harris laughed off the idea, even though, in theory, 
President Biden has put her in charge of the crisis.
    This is no laughing matter.
    One aspect of this crisis that has not been highlighted, and truly 
makes every State a border State, is the explosion of illegal drugs 
that have been streaming across the border. This particularly impacts 
my district in central New York and so many other communities across 
this country.
    According to CBP, drug seizures were up 18 percent in May, from 
April 2021. Methamphetamine seizures increased 53 percent, heroin 
seizures increased 7 percent, and fentanyl seizures increased 9 
percent. CBP continues to see an alarming surge in fentanyl seizures, 
which are 56 percent higher through May of fiscal year 2021 than all of 
fiscal year 2020. This means that more than 600 pounds of deadly 
fentanyl was seized every month for the last 12 months--and that is a 
record. In the last 6 months alone, CBP has seized 5,400 pounds of 
fentanyl, enough lethal doses to kill 1.2 billion people or the entire 
population of the United States more than 3 times over. More than 
90,000 Americans died of overdoses between September 2019 and September 
2020. Last year, drug overdose deaths rose by more than 27 percent in 
New York State alone.
    This is unacceptable, and Homeland Republicans will continue 
pressuring the administration to reverse its disastrous Executive 
Orders and work with us on stronger border security measures. Mr. 
Secretary, last time you were here, I stated that I didn't want to just 
be a bomb thrower but wanted to work with you on solutions--that offer 
remains. I have introduced several bipartisan bills, including H.R. 
2321 that would require DHS and Federal partners to establish an agile 
plan to respond to irregular migration surges with benchmarks in place 
for activation. This legislation received bipartisan support in the 
Senate earlier this month. I would ask that you look at this 
legislation, as I believe it is a common-sense approach to at least 
assisting our front-line law enforcement in managing the crisis at the 
border.
    While the President's request makes modest increases to CISA's 
budget, CISA needs sustained, robust funding to carry out its mission 
and nimbly respond to evolving threats. In the past 6 months, CISA has 
worked to mitigate multiple significant cyber incidents facing Federal 
networks, as well as the sharp increase in devastating ransomware 
attacks on our Nation's critical infrastructure.
    Unfortunately, ransomware attacks are becoming a more pervasive 
threat, and I feel that we, as a country continue to fall further and 
further behind--we continue to play defense instead of being on 
offense. I am concerned that the President's budget included a sharper 
increase for other Federal cybersecurity efforts, but not CISA, 
especially given the attacks CISA is tasked to defend. How can CISA be 
expected to continue to address these cyber threats head-on with such a 
small budget given that the global financial impact of these cyber 
attacks amounts to over $1 trillion annually?
    You have also acknowledged that CISA needs to be the quarterback of 
the .gov, and I fully agree, but this budget fails to do that. I 
believe that CISA needs to be a $5 billion agency in 5 years, and that 
is not going to happen with meager increases.
    I look forward to hearing from the Secretary today, but like I 
said, I do not envy his job. This budget proposal manages to somehow be 
incredibly bloated while at the same time, lack the funding we need to 
protect the homeland.
    Thank you, Mr. Chairman.

    Chairman Thompson. All the Members of the committee are 
reminded that under committee rules, opening statements may be 
submitted for the record. Members are also reminded that the 
committee will operate according to the guidelines laid out by 
the Chairman and Ranking Member in our February 3 colloquy 
regarding remote procedures. Again, I welcome our witness, the 
Secretary of Homeland Security, Alejandro Mayorkas. With 
objection, the Secretary's full statement will be inserted in 
the record. I now ask Secretary Mayorkas to summarize his 
statement for 5 minutes.

 STATEMENT OF ALEJANDRO N. MAYORKAS, SECRETARY, UNITED STATES 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Mayorkas. Chairman Thompson, Ranking Member 
Katko, and distinguished Members of the committee, good 
morning. Thank you for the opportunity to be with you again 
today.
    The 240,000 public servants in the Department of Homeland 
Security are confronting increasingly complex and dynamic 
threats. We have a broad mission set and my dedicated 
colleagues across the Department are up to the challenges we 
face. As we will discuss in more detail today, it is the 
resources afforded by this Congress that will help ensure we 
can continue to effectively meet our mission and recruit and 
retain our Nation's most talented professionals. I welcome this 
opportunity to discuss several key agency priorities for fiscal 
year 2022 set forth in the President's budget for the 
Department of Homeland Security.
    First, the President's budget provides for more effective 
and modern port and border security, including a $655 million 
investment toward modernizing our land ports of entry. At our 
ports of entry, the budget includes an additional $47 million 
to integrate Customs and Border Protection detection 
capabilities in addition to investments in border surveillance 
technology. Notably, there is no request for additional border 
wall construction.
    The budget reflects the President's commitment to 
rebuilding our immigration system into one that is fair, 
efficient, and upholds our Nation's values and our laws. It 
includes a new discretionary request for $345 million for U.S. 
Citizenship and Immigration Services to tackle our backlog of 
applications and petitions and to support up to 125,000 refugee 
admissions per year. To ensure the safe and humane treatment of 
migrants at the Southwest Border, the request includes $163 
million for medical needs for those in Customs and Border 
Protection custody.
    In recognition of the growing threat of cyber attacks 
against both the public and private sectors, the President is 
requesting new resources for the Cybersecurity and 
Infrastructure Security Agency which leads DHS in interagency 
efforts to defend against today's threats and promote cyber 
resilience. It provides $2.1 billion for cyber activities, 
which builds on the $650 million already provided to CISA in 
the American Rescue Plan to respond to Government-wide breaches 
and boost cyber defenses. It will also allow CISA to enhance 
its cybersecurity tools, hire qualified experts, and obtain 
support services to protect and defend critical infrastructure 
and Federal information technology systems.
    In recent years, the Federal Emergency Management Agency 
has stepped up to confront increasingly costly, devastating, 
and frequent natural disasters. FEMA has also taken the lead in 
our efforts to deliver and expand access to COVID-19 vaccines. 
As a result, the agency helped to vaccinate more than 5 million 
people and helped stand up more than 1,000 community 
vaccination centers. I am grateful for their efforts on both of 
these fronts, especially as they focus on addressing the 
existential threat of climate change.
    The budget invests $532 million above the fiscal year 2021-
enacted level to confront climate change in an equitable way, 
including significant investments in pre-disaster planning, 
climate resilience, grant programs, and FEMA's work force.
    Finally, under the Biden-Harris administration, our 
Department has made it a top priority to address domestic 
terrorism, which is the most lethal and persistent terrorism-
related threat to the United States today. The fiscal year 2022 
discretionary request includes $131 million to support 
innovative methods to prevent domestic terrorism while 
respecting privacy, civil rights, and civil liberties. It also 
supports critical research on the root causes of 
radicalization, enhanced community outreach, and funding for 
locally-driven efforts.
    I am honored to support and represent the dedicated DHS 
work force. Their commitment to the dynamic homeland security 
mission is unwavering, and I vow to do everything in my 
authority as Secretary to ensure they are resourced, 
compensated, and recognized appropriately. On behalf of the 
Department, I ask for your continued support in providing the 
resources we need to meet our critical mission.
    Thank you again for the opportunity to be here today. I 
look forward to discussing the President's fiscal year 2022 
budget priorities for the Department, and I welcome your 
questions today. Thank you.
    [The prepared statement of Secretary Mayorkas follows:]
              Prepared Statement of Alejandro N. Mayorkas
                             June 17, 2021
    Chairman Thompson, Ranking Member Katko, and distinguished Members 
of the committee: It is a privilege to appear before you today to 
discuss the Department of Homeland Security's (DHS) fiscal year 2022 
budget.
    On a daily basis, the more than 240,000 men and women of DHS 
respond to our Nation's most serious threats. DHS employees rise to 
every challenge, and the challenges are many. DHS is aggressively 
pursuing the administration's priorities and addressing some of the 
most critical and evolving threats to the United States. We are 
focusing on defeating the COVID-19 pandemic, advancing technology for 
border security while promoting a humane and efficient immigration 
system, combatting Domestic Violent Extremism, and detecting, 
mitigating, recovering from, and responding to malicious cyber attacks. 
I would like to highlight the work we have undertaken so far at DHS 
under the Biden-Harris administration, as well as the priorities 
included in the fiscal year 2022 President's budget.
                  responding to the covid-19 pandemic
    COVID-19 has impacted every facet of American life, and DHS has 
been integral to the effort to successfully and equitably distribute 
COVID-19 vaccinations across the country. The Federal Emergency 
Management Agency (FEMA) helped vaccinate more than 5 million people at 
our community vaccination sites and remains committed to assisting 
Government and nonprofit partners to help defeat this deadly pandemic. 
FEMA helped stand up over 1,000 Federally-supported community 
vaccination centers. FEMA has provided more than $4.6 billion in 
support of vaccinations across the country.
    As Secretary, I have no greater obligation than that of ensuring 
the health and safety of our workforce, 80 percent of whom are front-
line employees. Five days into the Biden-Harris administration, DHS 
launched Operation Vaccinate Our Workforce (VOW) to accelerate the 
administration of COVID-19 vaccines on a voluntary basis to front-line 
DHS employees. On the first day of the Biden-Harris administration, 
less than 2 percent of our front-line workers who elected to receive 
the vaccine had been vaccinated. Today, that share has grown to more 
than 77 percent. Prioritizing the health and safety needs of the DHS 
workforce has enabled us to fulfill our mission even in a constrained 
COVID-19 environment. Operation VOW partnered with the Veterans Health 
Administration, a world-class health care system, to get COVID-19 
vaccines into the arms of our front-line personnel.
    Our public health and medical professionals from the Chief Medical 
Officer's staff participated in the whole-of-Government approach to 
combat the pandemic by serving on the Federal Healthcare Resilience 
Task Force, the Medical Countermeasures Task Force, and deploying as 
part of a tactical medical assistance team. These efforts resulted in 
life-saving Personal Protective Equipment preservation best practices; 
the accelerated development, manufacture, and availability of COVID-19 
medical countermeasures; and the implementation of novel clinical and 
operational interventions that saved lives in diverse communities 
across the Nation.
                addressing the challenges at the border
    Since April 2020, the number of encounters at the border has been 
elevated due to on-going violence, natural disasters, food insecurity, 
and poverty in the Northern Triangle countries of Central America. This 
resulted in a substantial strain on the processing, transportation, and 
holding capacity of the U.S. Border Patrol. In response to the COVID-19 
pandemic, the recommended temporary holding capacity within all Border 
Patrol facilities had also been reduced by up to 75 percent to allow 
for increased physical distancing and to reduce the further spread of 
the disease. Compounding this challenge is the fact that the previous 
administration dismantled our Nation's immigration system, terminated 
the Central American Minors program, and cut hundreds of millions of 
dollars in foreign aid to the Northern Triangle countries of Guatemala, 
El Salvador, and Honduras. As a result, the recent surge in 
unaccompanied children presented a serious challenge for DHS and our 
colleagues at the Department of Health and Human Services (HHS). We 
have made significant progress on this front.
    On March 13, I directed FEMA to support a Government-wide effort to 
safely receive, shelter, and transfer unaccompanied children to HHS 
care and custody, and on-ward to a verified sponsor. FEMA immediately 
integrated and co-located with HHS to look at every available option to 
support a quick expansion of HHS's physical capacity for the care and 
custody of unaccompanied children, and to support HHS in managing 
overall operations. FEMA has deployed more than 100 employees to help 
HHS identify locations for emergency shelters, oversee construction, 
and manage operations.
    Additionally, U.S. Citizenship and Immigration Services (USCIS) has 
trained and deployed more than 350 of its personnel to virtually 
interview unaccompanied children and potential sponsors, in order to 
provide case management for unaccompanied children in HHS custody at 
Emergency Intake Sites (EIS). As of June 14, 2021, USCIS personnel have 
conducted approximately 10,000 interviews and recommended more than 
7,000 children for release to a sponsor. U.S. Customs and Border 
Protection (CBP) also constructed additional soft-sided facilities and 
stood up the interagency Movement Coordination Cell to bring together 
colleagues from FEMA, HHS, U.S. Immigration and Customs Enforcement 
(ICE), and CBP to share a common operating picture. More than 700 
additional DHS volunteers stepped up to help through the DHS Volunteer 
Force.
    Between March 13 and May 1, FEMA assisted in the activation of 14 
HHS EIS facilities. EIS facilities are operating in Texas, California, 
and Michigan, increasing the potential temporary bed capacity when 
fully staffed by 19,987 beds, or 1,999 percent.
    This additional bed capacity, along with improvements in the 
process of safely releasing unaccompanied children to sponsors, has 
resulted in a massive reduction in the number of unaccompanied children 
in CBP custody--from 5,767 at its peak on March 29 to 685 on June 11. 
During this same period, the number of unaccompanied children who have 
been in custody longer than 72 hours has decreased from 4,078 at its 
peak on March 29 to 2 on the morning of June 11, while average time in 
custody for unaccompanied children has fallen from 133 hours on March 
29 to 23 hours on the morning of June 11. This progress was made, 
moreover, while CBP encountered 18,000 unaccompanied children in the 
month of April. For the 7-day period ending on June 10, CBP transferred 
an average of 392 unaccompanied children per day to HHS's Office of 
Refugee Resettlement, approximately 60 percent of CBP's total 
unaccompanied child population on a given day, and keeping pace with 
daily encounters.
    On January 20, DHS announced it would suspend all new enrollments 
in the Migrant Protection Protocols (MPP) program. Under MPP, 
approximately 70,000 individuals were forced to return to Mexico while 
awaiting their immigration proceedings. On June 1, 2021, as directed by 
the President in Executive Order 14010, I completed my review of MPP 
and terminated the program. As part of the administration's phased 
approach to restore safe and orderly processing at the Southwest 
Border, DHS began processing into the United States certain individuals 
who were enrolled in MPP to allow them to pursue their legal claims 
before the Department of Justice's (DOJ) Executive Office for 
Immigration Review. The Department worked closely with interagency and 
international organization partners as well as the government of 
Mexico. This innovative and efficient process to address certain 
individuals who were enrolled in MPP is a testament to our ability to 
process individuals into the United States in a way that is humane and 
efficient while still enforcing our immigration laws and maintaining 
border security and public health.
           stopping the threat of domestic violent extremism
    As threats against the Nation evolve, it is critical that the 
Department adapts quickly and efficiently when necessary to meet any 
threat against the people of the United States. Domestic Violent 
Extremism (DVE) is typically fueled by false narratives, conspiracy 
theories, and extremist rhetoric spread through social media and other 
on-line platforms. The lethality of this threat is all too real, as 
witnessed during the attack on the U.S. Capitol on January 6, 2021, and 
recent attacks across the United States, including against Government 
buildings, personnel, and minority groups. DHS is prioritizing 
addressing this threat while improving the quality of our intelligence 
gathering and analysis, information sharing, and DVE detection, 
prevention, and response efforts.
    Combatting this violence requires a whole-of-Government and whole-
of-society approach, which I have already initiated at DHS in 
collaboration with key partners, including the DOJ, to help ensure the 
violence and assault on democracy that occurred on January 6 does not 
occur again. DHS has established a new, dedicated domestic terrorism 
branch within the Department's Office of Intelligence and Analysis, and 
recently established a new Center for Prevention Programs and 
Partnerships, replacing the Office for Targeted Violence and Terrorism 
Prevention. Further, DHS is increasing training opportunities for law 
enforcement partners, including through threat assessment and 
management programs related to DVE. DHS has also undertaken an internal 
review of the potential threat of DVE within the Department.
    In February, I designated, for the first time, combatting DVE as a 
``National Priority Area'' for the fiscal year 2022 State Homeland 
Security Program and Urban Area Security Initiative grant program. As a 
result, State, local, Tribal, and territorial governments are required 
to spend 7.5 percent of their DHS grant awards combating this threat. 
On March 24, the Department made $20 million available through the 
Targeted Violence and Terrorism Prevention Grant Program to help 
communities across our country develop innovative capabilities to 
combat terrorism and targeted violence.
                bolstering cybersecurity and resilience
    Our Nation faces constant cyber threats from nation-states and 
criminal groups alike. Last month, the United States suffered a 
significant ransomware attack against its critical pipeline 
infrastructure. Over the past months, we discovered several intrusion 
campaigns impacting the Federal Government and critical infrastructure. 
As the Nation's lead agency for protecting the Federal civilian 
government and critical infrastructure against cybersecurity threats, 
the Cybersecurity and Infrastructure Security Agency (CISA) serves a 
central role by enabling greater visibility into cybersecurity threats, 
strengthening incident response capabilities, and driving improvements 
in security practices. Congress recently empowered and further 
strengthened CISA through several provisions in the fiscal year 2021 
National Defense Authorization Act (NDAA) and funding in the American 
Rescue Plan Act of 2021 that the Department is now focused on 
implementing.
    On May 12, President Biden issued an Executive Order to protect 
Federal Government networks and to bolster our Nation's cybersecurity. 
This Order will empower DHS and our interagency partners to modernize 
Federal cybersecurity, expand information sharing, and dramatically 
improve our ability to prevent, detect, assess, and remediate cyber 
incidents across the Federal Government. We are actively working to 
implement the Executive Order to help agencies improve their security 
posture, develop a standard playbook for incident response, and 
establish a Cyber Safety Review Board comprised of public and private-
sector stakeholders.
    In addition to the NDAA and the Executive Order, I announced a 
series of 60-day ``sprints'' to mobilize action across the Department 
focusing on specific priority areas. The first sprint was dedicated to 
elevating the fight against ransomware, a particularly egregious type 
of malicious cyber activity. The second is dedicated to building a more 
robust and diverse workforce at the Department and beyond, including a 
DHS cybersecurity hiring sprint during the 60-day sprint and the 
development and launch of several other workforce-focused initiatives. 
Subsequent sprints will focus on better protecting industrial control 
systems, strengthening cybersecurity in the context of our 
transportation systems, and safeguarding the integrity of our election 
infrastructure.
                funding priorities for fiscal year 2022
    The fiscal year 2022 President's budget provides $1.2 billion for 
effective and modern port and border security, which includes $655 
million for modernization of land ports of entry (POE); investments in 
modern border security technology and assets; and investments in modern 
facility design and construction. The budget includes no additional 
funding for border wall construction, and requests that Congress cancel 
remaining border wall construction balances upon passage of a fiscal 
year 2022 appropriations act. To expand our detection capabilities, CBP 
Air and Marine Operations seeks enhancements to aircraft sensors and 
additional aircraft acquisitions critical to surveillance along the 
Southwest Border. The fiscal year 2022 President's budget includes $28 
million for the first land interdiction configuration of the Multi-role 
Enforcement Aircraft, which integrates with the $9 million request for 
the U.S. Border Patrol small Unmanned Aircraft System program. The 
integration of these border security technologies will provide a common 
operating picture for law enforcement. At the POEs, CBP officers 
continue to optimize Non-Intrusive Inspection technology, seeing 
through barriers, and detecting concealed contraband. A $47 million 
investment builds on their continued integration and deployment along 
our borders, while maintenance and system support ensure reliability on 
the front lines.
    The fiscal year 2022 President's budget also supports the promise 
of a fair and equitable immigration system that both enforces our 
immigration laws and reflects the Nation's values. The budget includes 
a 50 percent increase for case management services within the ICE 
Alternatives to Detention program. This funding is intended to ensure 
non-citizens are made aware of their legal obligations and it promotes 
a more transparent immigration system. In addition, this proposal 
reflects a new discretionary request of $345 million for additional 
staff, equipment, and support services to administer the Nation's legal 
immigration system. These enhancements will provide resources to reduce 
application and petition backlogs and allow USCIS to interview enough 
refugees to admit up to 125,000 annually. Additionally, to ensure the 
safe and humane treatment of migrants at the Southwest Border, the 
request includes $163 million for medical services for those in CBP 
custody. This funding covers intake health interviews, medical 
assessments, on-site diagnosis and treatment of basic medical 
conditions, and comprehensive follow-up and monitoring in austere 
conditions.
    The fiscal year 2022 President's budget continues on-going 
investments in CISA to address critical and pressing cyber, physical 
infrastructure, and emergency communications security issues. 
Accordingly, $2.1 billion is requested for cyber activities including 
$408 million for the National Cybersecurity Protection System and $325 
million for the Continuous Diagnostics and Mitigation program. This 
request builds on the $650 million already provided to CISA in the 
American Rescue Plan Act of 2021 to respond to the recent Government-
wide cyber breaches and boost U.S. cyber defenses. It will also allow 
CISA to enhance its cybersecurity tools, hire highly-qualified experts, 
and obtain support services to protect and defend Federal and critical 
infrastructure information technology systems.
    In a constantly-evolving security environment, the Transportation 
Security Administration (TSA) continues to leverage emerging technology 
and enhanced screening. In fiscal year 2022, TSA will invest $127 
million in the Secure Flight program, a risk-based, intelligence-driven 
watch-list program to identify potential threats. To balance the need 
for increased security without restricting freedom of movement for 
legitimate travelers, the fiscal year 2022 President's budget includes 
$104 million to expand TSA's Computed Tomography (CT) screening 
capability. CT screening is the most impactful property-screening tool 
available today, leveraging 3D imagery and detection against non-
conventional concealment methods, while eliminating the need for 
passengers to remove electronic items from carry-on bags. Recognizing 
long-term strategic goals, TSA also seeks to invest in their essential 
personnel through a Transportation Security Officer service-pay 
strategy, as well as the critical infrastructure supporting the more 
than 55,000+ personnel of TSA.
    The fiscal year 2022 President's budget reflects FEMA's continued 
intent to execute its mission while managing resources efficiently and 
effectively. This includes coordinating response and recovery missions 
and maintaining a highly-regarded and well-trained cadre of employees 
ready to respond to on-going and future disasters. The budget invests 
$532 million above the fiscal year 2021 enacted level to confront 
climate change, including significant investments in pre-disaster 
planning and resilience efforts, climate resilience grant programs, and 
investments into FEMA's incident management workforce. FEMA programs 
include a resilient infrastructure and communities grant program, which 
prioritizes climate resilience projects in vulnerable and historically 
underserved communities. FEMA has projected $18.8 billion for the 
Disaster Relief Fund, providing immediate assistance to families and 
communities affected by disasters to rebuild and recover. In addition 
to advancing long-term strategies via this request, FEMA remains 
focused on the on-going COVID-19 response and will continue working 
with partners to defeat this deadly pandemic.
    The U.S. Coast Guard is in the midst of the largest 
recapitalization effort in its history, an effort critical to building 
the Coast Guard our Nation needs to meet increasingly complex National 
security threats and to advance America's economic prosperity. In 
fiscal year 2022, the Coast Guard seeks to continue its momentum in 
this effort, with $170 million for Long Lead Time Materials for Polar 
Security Cutter No. 3, as well as $597 million supporting the 
construction of Offshore Patrol Cutter construction. The fiscal year 
2022 President's budget also adds $116 million for sustainment and 
crewing of new cutters, boats, and aircraft, as well as $194 million to 
address maintenance backlogs on Coast Guard surface and aviation 
assets.
    The men and women of the U.S. Secret Service protect our Nation's 
highest elected and appointed leaders, visiting foreign heads of State, 
facilities, and major events. The fiscal year 2022 President's budget 
includes $2.6 billion to support the Secret Service's critical 
missions, ranging from continued investment in Fully Armored Vehicles 
to empowering State and local law enforcement through partnership with 
the National Computer Forensics Institute.
    I have outlined above some of the many operational successes and 
challenges throughout the Department and the fiscal priorities included 
in the fiscal year 2022 President's budget for DHS. The strategic 
investments that each DHS component initiates directly impact the 
readiness, preparedness, flexibility, and success of the Department in 
its mission to secure the homeland.
    I am honored to support and represent the dedicated DHS workforce. 
Their commitment to the dynamic homeland security mission is 
unwavering, and I vow to do everything in my authority as Secretary to 
ensure they are resourced, compensated, and recognized appropriately. 
Therefore, I ask for your continued support in providing the resources 
we need to meet our mission.
    Thank you for the opportunity to appear before you to discuss the 
Department's fiscal year 2022 President's budget submission. I welcome 
any questions you have at this time.

    Chairman Thompson. I thank the Secretary for his testimony. 
I remind each Member that he or she will have 5 minutes to 
question the witness. I now recognize myself for such 
questioning.
    Mr. Secretary, when you last testified before the committee 
in March, you stated you would certainly be reviewing the 
events that led up to the horrible day of January 6. Since 
then, DHS has been assessing its capabilities to address 
domestic terrorism and prevent a January 6-like attack from 
happening again. Just this week, the Biden administration, as 
you said in your opening statement, released the Nation's first 
National Strategy for Countering Domestic Terrorism which tasks 
DHS and other agencies with the important work of combatting 
this persistent threat. What is the status of your review into 
what happened on January 6 as it relates to DHS?
    Secretary Mayorkas. Thank you very much, Mr. Chairman. We 
have, indeed, reviewed the events that led up to the tragic 
events of January 6, and our review is on-going. I think that 
we are predicated on 3 pillars of our work to combat domestic 
terrorism.
    No. 1, we base it on intelligence and information gathered 
by law enforcement. We are data-driven. No. 2, we are focused 
on ensuring that while we do this critical work, we protect 
civil rights, civil liberties, and the rights of privacy of 
each member of the American public. Third, and importantly, 
that we are ideology-neutral, that we look at any ideology, of 
false narrative, of mis- and disinformation with respect to 
ideologies of hate and radicalization, and critically, and this 
is what is a distinguishing factor, their connectivity to 
violence, regardless of the politics of any ideology, and that 
we address it. This has been a long-standing challenge and I 
note, for example, the 2017 attack on Republican Members of 
Congress at our baseball stadium. It is vitally important that 
we keep that principle in mind that we are ideology-neutral and 
we are focused on the connectivity to violence, which is 
unacceptable in our country.
    Chairman Thompson. Thank you very much. As you know, the 
majority of Members who come to Washington do so by air. I have 
heard from flight attendants and others in the airline industry 
about the alarming uptick in unruly passenger incidents aboard 
planes in the last year. Some of these episodes have included 
violent assaults on flight attendants and TSA officers. I am 
gravely concerned that this number of such incidents is on the 
rise. What is DHS doing to address the situation and address 
problems on the ground before they become problems in the air?
    Secretary Mayorkas. Mr. Chairman, I share your view that 
this violence is intolerable and will not be accepted. We have 
communicated quite clearly that the mask mandate that governs 
the conduct of individuals in our modes of transportation and 
in the air is a Federal mandate, and I have communicated that 
from different airports around our country. We also have 
prepared Federal air marshals to address any act of violence 
that they themselves observe while on flights. Importantly, we 
are working with law enforcement to ensure that these acts are 
met with the full force of Federal law, which is applicable to 
acts of violence in the air. These individuals who commit these 
heinous acts will be prosecuted to the full extent of the law.
    Chairman Thompson. I look forward to it. There is some 
question about our air marshals getting involved if they are on 
the plane. I would like to further that conversation with you. 
Last, our work force, we passed a bill, H.R. 8993, the 
Department of Homeland Security Intelligence and Cybersecurity 
Diversity Fellowship Program, but there is no money in the 
budget for it this year. Diversity of the work force is 
important. I look forward to working with you on seeing where 
we can identify some resources that can support that program.
    Secretary Mayorkas. Mr. Chairman, if I may. That is a core 
value of this administration and our Department in it to ensure 
that the principles of diversity, equity, and inclusion are 
fully realized, and you have my commitment.
    Chairman Thompson. Thank you very much. I now recognize the 
Ranking Member of the full committee, the gentleman from New 
York, Mr. Katko, for questions.
    Mr. Katko. Thank you, Mr. Chairman. Mr. Secretary, just to 
follow up on what Mr. Thompson just said. If that is one of 
your core values and one of your core priorities, diversity, 
why isn't there any funding for it in the budget?
    Secretary Mayorkas. Ranking Member Katko, it is in 
incumbent upon us to use the authorities that we have, the 
recruiting, hiring, and retention authorities that we have to 
achieve those objectives. We are implementing programs and 
practices within our existing budget authority to ensure that 
the diversity of our work force, including the diversity of our 
leadership, reflects the diversity of the American public we 
serve.
    Mr. Katko. I think it is fair to say that if you had more 
funding for it, if you had some funding for it, it would 
enhance that even better.
    Let's go on to another question here. CISA, I appreciate 
your comments about being--CISA should be the quarterback of 
the .gov domain and the quarterback of cybersecurity in the 
Federal Government. I think you and I agree on that. You and I 
agree on a lot of things with respect to CISA. So, let me ask 
you this. It is very simple and a question it has--it warrants 
a very brief response. Do you believe CISA should be up to 
about a $5 billion agency in the not-too-distant future?
    Secretary Mayorkas. I think it is very important to 
resource CISA fully, Mr. Ranking Member. You and I do agree on 
the mission of CISA, its criticality, as well as funding its 
future. We have to make sure that the additional funds that we 
receive are expended wisely, efficiently, and effectively. We 
have requested additional funds for CISA. We so greatly 
appreciate your support, this committee's support, and 
Congress' support for the additional money we have already 
received for that agency.
    Mr. Katko. Mr. Secretary, you admit, would you not, that 
CISA is completely overwhelmed with the amount of work they 
have right now?
    Secretary Mayorkas. I would not say that. I would say we 
are extraordinarily busy. We are incredibly focused on this, 
one of our most critical, urgent priorities, the cybersecurity 
of our Nation.
    Mr. Katko. I understand, sir. Thank you, sir. We have got 
several other questions to ask you. But given the gravity of 
the situation, given my discussions with folks at CISA, it is 
clear to me that they need more resources. I would ask you 
reconsider and speak to the administration about plussing this 
up. We are going to have to do this in the appropriations 
process. You are the one that is going to be the guy that is 
going to be the cheerleader for CISA. A 6 percent increase, 
given what is going on with cybersecurity in this country right 
now, just isn't cutting the mustard. So, I would respectfully 
ask you to do that.
    Secretary Mayorkas. I am incredibly----
    Mr. Katko. Now, with respect to----
    Secretary Mayorkas. If I may, I am incredibly proud to 
serve as the cheerleader for CISA. I am undaunted and 
unrelenting in that regard.
    Mr. Katko. Well, then give more money and that would help. 
With regard to the Border, Customs and Border Protection, is it 
correct that there is not additional Border Patrol agents 
scheduled in this budget request?
    Secretary Mayorkas. Mr. Ranking Member, U.S. Customs and 
Border Protection is seeking to invest significantly in court 
modernization and technology,----
    Mr. Katko. I understand that.
    Secretary Mayorkas [continuing]. Integrated technology.
    Mr. Katko. Sir, I don't mean to interrupt you, but I am 
asking just a straight question. Does the budget contemplate 
hiring more Customs and Border Patrol agents?
    Secretary Mayorkas. It does. It does not--we have vacancies 
now. We are very focused on recruiting and hiring additional 
personnel.
    Mr. Katko. Understood. Understood, thank you. But the 
bottom line is if you go to the border, you will know that many 
phenomena are happening. The retirement rate is very alarming 
right now. It is increasing because of what is going on at the 
border. We have a 21-year high in Border Patrol agents being 
pulled from all over the country to deal with the crisis at the 
border. It would seem to me that it would be a good time for us 
to contemplate plussing up Border Patrol.
    One last question, if I may, sir. You were a prosecutor 
before you took this job. You prosecuted cases. You tried 
cases. Is that right?
    Secretary Mayorkas. For 12 years, I served as an assistant 
United States attorney and the United States attorney for the 
Central District of California.
    Mr. Katko. I am a former AUSA as well, and I am sure you 
will agree it is the best job you can ever have. But in that 
capacity, did you ever go to the crime scenes? Did you ever go 
to a crime scene so you can get in your head to see what 
happened with the crime so you could then prosecute it?
    Secretary Mayorkas. I think you may recall since we both 
served as assistant United States attorneys that it is 
critically important that a Federal prosecutor that is bringing 
a case not serve as a witness. So, it was our office policy 
not, in fact, to observe a crime scene. To rely on the brave 
and extraordinary Federal agents, as well as State and local 
law enforcement who did the investigative work, and we 
focused----
    Mr. Katko. Understood. I am not talking----
    Secretary Mayorkas [continuing]. On our prosecution 
mission.
    Mr. Katko. I am not talking about when a crime was going on 
or whatever. Just going back and surveying just to get an eye 
and see what happened? You never did that?
    Secretary Mayorkas. Ranking Member Katko, I did not and my 
record of success as a Federal prosecutor speaks for itself.
    Mr. Katko. OK, well, I am not questioning that at all. 
Obviously, it was successful. OK, well----
    Chairman Thompson. The Ranking Member's time has expired.
    Mr. Katko. Thank you very much, Mr. Chairman.
    Chairman Thompson. Thank you. The Chair recognizes the 
gentlelady from Texas, Ms. Jackson Lee, for 5 minutes. The 
gentlelady is having technical difficulties. The Chair 
recognizes the gentleman from Louisiana for 5 minutes, Mr. 
Higgins.
    Ms. Jackson Lee. I am back.
    Mr. Higgins. Mr. Chair, was I recognized, Mr. Chairman?
    Chairman Thompson. Yes, you were. The gentleman from 
Louisiana.
    Mr. Higgins. Thank you, Mr. Chairman. I am appreciative of 
the recognition. Today's hearing should be one of the most 
significant hearings in Congress. We face unbelievable and 
unprecedented challenge on our Southern Border. We are speaking 
with the one man that leads the Department of Homeland Security 
today. I am going to question him about the budget that has 
been requested by our President. We recognize, as American 
citizens, that our Nation is imperiled. Certainly, that 
imperiled status is a threat from weak and agenda-driven 
policies, by politicians who longer recognize their service to 
we the people. Our Southern Border is absolutely the front line 
of defense for the sovereignty of our Nation.
    Yet, America can expect no real answers today. What you are 
going to hear, my fellow citizens, is scripted, rehearsed 
speeches. Mr. Mayorkas is not going to answer Republican 
questions. He has made that clear. He is absolutely going to 
echo the talking points of the Biden administration and the 
Democrat Majority. So, let's ask about that. Mr. Mayorkas, have 
you or your staff coordinated with the Democratic Majority 
Members of the Homeland Security Committee or the Homeland 
Security Committee Majority staff regarding your responses to 
questions you will receive today and your answers? Have you 
coordinated that, Mr. Mayorkas?
    Secretary Mayorkas. Congressman Higgins, I conduct my 
responsibilities and fulfill my duties to the American public--
--
    Mr. Higgins. Bingo,----
    Secretary Mayorkas [continuing]. In a bipartisan----
    Mr. Higgins [continuing]. Exactly as I advised----
    Secretary Mayorkas [continuing]. In a bipartisan--in a 
bipartisan manner.
    Mr. Higgins. You are not going to answer my question.
    Secretary Mayorkas. I have had the pleasure and the 
privilege of speaking with Members----
    Mr. Higgins. Finish----
    Secretary Mayorkas [continuing]. Of both sides of the aisle 
prior to my testimony this morning.
    Mr. Higgins. Reclaiming my time. Mr. Mayorkas, thank you 
for making my point. I have a question that you probably are 
not prepared for. Mr. Mayorkas, you are in charge of defending 
our homeland. Let's dig into your true beliefs, sir. Do you 
believe that every square inch of American soil is sovereign 
and should be secured and protected?
    Secretary Mayorkas. Yes.
    Mr. Higgins. Every square inch,----
    Secretary Mayorkas. Yes.
    Mr. Higgins [continuing]. Is it sovereign and should be 
secured and protected?
    Secretary Mayorkas. Yes.
    Mr. Higgins. Simple question.
    Secretary Mayorkas. I answered yes.
    Mr. Higgins. Mr. Mayorkas, you are the lead DHS, good sir. 
That is a pretty simple question. Do you believe that every 
square--the answer is yes. Do you believe that you are as 
leader of Department of Homeland Security, do you believe that 
you are accomplishing that task right now?
    Secretary Mayorkas. We are.
    Mr. Higgins. My numbers say we have 1.1 million illegal 
crossings at our Southern Border. We are absolutely in crisis 
as a Nation.
    Secretary Mayorkas. Congressman----
    Mr. Higgins. You are in charge.
    Secretary Mayorkas. Congressman----
    Mr. Higgins. How are we doing?
    Secretary Mayorkas. Congressman Higgins, I hope you----
    Mr. Higgins. You are.
    Secretary Mayorkas. I hope you heard the answers to your 
questions.
    Mr. Higgins. I turn my attention to the American----
    Secretary Mayorkas. Both of them were affirmative.
    Mr. Higgins [continuing]. Mr. Mayorkas is completely making 
our point.
    Chairman Thompson. Mr. Higgins, I am very--please allow the 
witness to answer the question. The Secretary----
    Mr. Higgins. Mr. Mayorkas, you have been very----
    Chairman Thompson [continuing]. Did answer your questions.
    Secretary Mayorkas. Congressman Higgins,----
    Mr. Higgins [continuing]. Attention to the crisis at our 
border.
    Secretary Mayorkas. Mr. Chairman, I----
    Mr. Higgins. Mr. Chairman, I yield the balance of my time.
    Secretary Mayorkas. Mr. Chairman, I had technical 
difficulties. Or I should say Congressman Higgins had technical 
difficulties. It was very difficult to receive his questions. I 
don't know if he heard my answers. I answered his questions 
quite directly.
    Chairman Thompson. Yes, we heard him. He has yielded his 
time. The Chair recognizes, again, the gentlelady from Texas, 
Ms. Jackson Lee, for 5 minutes.
    Ms. Jackson Lee. Thank you so very much. Good morning, Mr. 
Secretary. Thank you again. Let me thank the administration for 
its humanitarian treatment of this very difficult portion of 
the immigration unaccompanied children. Let me thank you for 
the work that you have done to reunite children that have been 
disastrously separated over the last 4 years, cruelly, as many 
of us have experienced those mothers and children not being 
reunited.
    Let me turn to CISA and the important work of cyber and 
cyber response. We are under attack. The President made it 
clear in his meeting with Mr. Putin yesterday. I want to ask, 
how is the Cyber Response Recovery Fund designed to function in 
consort with CISA in order to both prevent and respond to 
attacks on our critical infrastructure such as in the case with 
Solar Winds and Colonial Pipeline? Mr. Secretary, as you well 
know, my time is short and I have several other questions. I am 
delighted to welcome you.
    Secretary Mayorkas. Congresswoman, thank you so much for 
your support of CISA and its critical mission. That fund is 
very important to equip and enable victims of cyber attacks to 
recover from those attacks most swiftly in the service of the 
public-private partnership and the American public.
    Ms. Jackson Lee. I think it is very important that either 
we as the Congress continues to increase that funding, but also 
I would encourage developing the expertise at DHS as well.
    Texas understands the challenge of climate crisis. Both 
States and local governments that have a history of dealing 
with climate emergencies, and are projected to continue this 
experience, will they able to be prioritized with competitive 
grants?
    Secretary Mayorkas. Congresswoman, yes, they will be and we 
are taking a look at our FEMA grant programs, which are so 
critically important to disaster prevention relief and recovery 
and resilience, and the critical impacts of climate change on 
States' abilities to be prepared.
    Ms. Jackson Lee. The Transportation and Security 
Administration has shown itself over and over again and the 
TSOs how they have been the front line of our security. Many of 
them were impacted by COVID-19. Should the administration have 
a policy of trying to professionalize the TSA, TSOs for 
retention and as well, be able to support increased funding for 
that purpose, No. 1? No. 2, the Department has security as its 
important point, but it also should have a commitment to civil 
rights, civil liberties. What is the process that occurs with a 
stakeholder reaches out to the Office for Civil Rights and 
Civil Liberties? If you would take the TSA question first.
    Secretary Mayorkas. Thank you so much, Congresswoman. We 
are dedicating to funding TSA work force. I really applaud and 
embrace the Chairman's dedication to that work force. In fact, 
just a few weeks ago, I made a critical announcement about our 
commitment, not only to provide collective bargaining rights to 
the TSA work force, to the TSOs, but also to work toward 
ensuring that their pay is at a level at least that level 
provided under Title 5 of the United States Code. So, I share 
your commitment and I really praise the Chairman's leadership 
in this area.
    One of the critical things, if I may, turning to your 
second question, Madam Congresswoman, is a practice that I have 
instituted in the Department of Homeland Security. Our 
statutorily-created Office for Civil Rights and Civil Liberties 
does not engage at the end of our policy development in our 
processes and procedures, but at the very, very beginning. That 
is critical to ensuring that the movements that we make, the 
decisions that we make, integrate that critical mission set, 
those values and principles on the front end of our work.
    Ms. Jackson Lee. Very quickly----
    Secretary Mayorkas. I look forward to working with you on 
that.
    Ms. Jackson Lee. Very quickly, we know what is happening in 
the Nation's airways and the Nation's airlines and the Nation's 
skies. I heard you make a comment about marshals. I would be 
interested in adding their powers or their procedures in how we 
can ensure a safe travel for our traveling public who are 
civilians and who have been called into action as if they are 
staff or military to save the lives of the other traveling 
public.
    Secretary Mayorkas. I look forward to working with you on 
that, Congresswoman. I really applaud the tremendous work that 
our Federal air marshals have done so very many years. I know 
of their work very well.
    Ms. Jackson Lee. Thank you. Thank you so very much. I want 
to compliment FEMA. We were under siege as all of us were in 
COVID-19. They opened up several sites in the Texas area where 
the surge of COVID-19. We lost a lot of lives, but they were 
always there and particularly during the very difficult and 
very unhealthful time of trying to get PPEs and other equipment 
prior to the vaccinations. So, thank you so very much. Mr. 
Chairman, I yield back.
    Chairman Thompson. Thank you. The gentlelady yields back. 
The Chair recognizes the gentleman from Mississippi, Mr. Guest, 
for 5 minutes.
    Mr. Guest. Thank you, Mr. Chairman. Mr. Secretary, thank 
you for joining us today. In reviewing the information that you 
submitted to this committee, I see that in the category where 
you address the challenges at the border, you state that the 
number of encounters at the border has been elevated. You go on 
to say, this resulted in a substantial strain on the 
processing, transportation, and holding capacity of the U.S. 
Border Patrol. Later you say, as a result of the recent surge 
in unaccompanied children, this presents a serious challenge to 
DHS. I know you have made previous statements. Previously, I 
believe you said that we were on pace to encounter more 
individuals on the Southwest Border than we have in the last 20 
years.
    Mr. Secretary, the last time you were here when questioned 
by Ranking Member Katko, he asked, given the tremendous rise 
and surge of individuals coming to the border, wouldn't it be 
fair to call this a crisis? Your response was, I am not 
spending any time on the language that we use. I am spending 
time on the operational response to the situation at the 
border. You make that, and then we see today a budget that has 
no increased funding for key front-line agencies. So, my first 
question to you, Mr. Secretary, is if when compiling these 
budget requests, did you consult with our State and local 
partners that we rely on so frequently as we attempt to secure 
our homeland?
    Secretary Mayorkas. Congressman, thank you so much for your 
question. I have most certainly engaged with State and local 
law enforcement throughout my 4-month tenure. I have done so 
regularly, not only with chiefs of police, but with sheriffs 
and on occasion, rank and file, so that I understand what is 
being experienced on the ground and best able and equipped to 
respond to it most effectively. Most certainly, I have engaged 
and I will continue to do so. In fact----
    Mr. Guest. Well----
    Secretary Mayorkas. In fact, if I may, I have elevated the 
position that was in the prior administration a deputy 
assistant secretary for State and local law enforcement to the 
position of assistant secretary for State and local law 
enforcement. In addition to that, I designated an individual, a 
former chief of police, as a senior counselor to ensure that 
our engagement in State and local law enforcement is both as 
robust as possible, and effective in implementing the policies 
and procedures that we are tasked to perform.
    Mr. Guest. Mr. Secretary, I appreciate that open line of 
communication. I do see here where the Governor of Texas, Greg 
Abbott, last week announced plans to build a wall on the 
Southwest Border. I see that the budget request that you 
submitted has no funding for additional wall construction. 
Governor Abbott said, our efforts will be effective if we work 
together to secure the border, make criminal arrests, protect 
landowners, rid our community of dangerous drugs, and provide 
Texans with the support they need and deserve. This is what he 
referred to in his statement as an unprecedented crisis. So, in 
reviewing the request that you have since submitted 
specifically as it relates to the Southwest Border, I see as it 
relates to U.S. Customs and Border Patrol that we are looking 
at roughly a $1.9 million less this budget year than last. No 
funding for additional Border Patrol agents or CBP officers. No 
funding for additional wall construction.
    I have personally had the opportunity to visit the border 
to meet with many of our front-line officers who are working 
extremely hard to contain what I believe is truly a crisis at 
the border. So, my question is based upon the previous 
statements that you have made to this committee that you have 
submitted in writing, that you have made to the public, could 
you, please, walk me through and explain to me the reason for 
the decline in CBP's budget request, the lack of additional 
funding for Border Patrol agents, the lack of additional 
funding for CBP agents, and the rationale behind no additional 
wall funding, when clearly the Governor of Texas thinks that it 
is very important to the point that he has already committed 
$250 million of taxpayer money from the people of Texas to 
build additional wall funding.
    Secretary Mayorkas. Congressman, let me take a step back 
because if we take a look at the border as a whole, it is not a 
one-size-fits-all. The border is very dynamic and there are 
different needs and challenges in different parts of the 
border. No. 1, with respect to the brave men and women of the 
United States Border Patrol, we are very focused on hiring, 
recruiting, and hiring individuals to fill the vacancies. No. 
2, we are studying border wall construction. We have already 
focused on repairing roads and levies where that work is 
needed. We are looking at particular gaps in the wall and 
determining what is the best course of conduct to secure our 
border. No. 3, and this is a vitally important consideration, 
is innovation and technology as the greatest force multiplier 
in the service of border security. That has been a bipartisan 
position ever since I have worked in the Department of Homeland 
Security. I am 20 years into Federal service this month, both 
as a member of the Department of Homeland Security and as a 
Federal prosecutor. I remember very clearly and very powerfully 
my meeting with Senator John McCain and his advocacy to me 
about the need to focus on technology. That the innovations in 
modern development serve as the greatest force multiplier and 
have the greatest impact in ensuring our security. I agreed 
with him then and we are executing on that approach now. Not at 
the expense----
    Chairman Thompson. The gentleman's time has----
    Secretary Mayorkas [continuing]. Of other--I am sorry.
    Chairman Thompson. The gentleman's time has expired. The 
Chair recognizes the gentleman from Rhode Island for 5 minutes, 
Mr. Langevin.
    Mr. Langevin. Thank you. Thank you, Mr. Chairman. Mr. 
Secretary, I want to thank you for the important work that you 
are doing leading the Department of Homeland Security. I want 
to recognize the important work by the men and women of the 
Department in keeping the country safe and secure.
    Mr. Secretary, I want to begin by talking about the scourge 
of ransomware that is affecting our country as epitomized by 
the Colonial Pipeline and JBS attacks. As part of last year's 
defense bill, we authorized the creation of a Joint Cyber 
Planning Office at CISA, otherwise known as JCPO. I am grateful 
to see the President's budget request funds to the office. So, 
JCPO, which is based on a recommendation from the Cyberspace 
Solarium Commission, on which I had the privilege of serving as 
a commissioner, will bring together Government and private-
sector entities to coordinate defensive campaign plans. Mr. 
Secretary, what role do you see for the JCPO in helping us 
defend ourselves from on-going ransomware campaigns?
    Secretary Mayorkas. First and foremost, Congressman, just 
let me thank you for being such a champion of our cybersecurity 
mission and CISA specifically. I think JCPO is on point for 
much of the work that CISA needs to do. I greatly appreciate 
the work of the Solarium Commission. I had the privilege of 
spending a couple hours with the staff to better understand the 
details of its work and its recommendation. I know that the 
nominee to lead CISA, Jennifer Easterly, who was voted out of 
committee yesterday and we are hoping for her swift 
confirmation, will invest a tremendous amount of focus on JCPO 
for the very reason you identified.
    Mr. Langevin. Thank you. So, I certainly agree that JCPO 
will be critical in our effort. However, the ransomware problem 
is immediate and demands immediate action. So, Mr. Secretary, 
would you agree that we should convene the interagency and 
private sector at the JCPO at soon as possible to avoid 
duplication of effort and ensure coordination in our efforts?
    Secretary Mayorkas. I most certainly do, Congressman. Thank 
you. As a matter of fact, my first public remarks on the 
cybersecurity challenges that our Nation faces in February 
shortly after I was confirmed and assumed this role, was on the 
threat of ransomware. The very first 60-day sprint that we 
embarked upon with CISA was focused on ransomware before the 
Colonial Pipeline attack, before the attack on JBS. This is 
most certainly a critical threat that we face on the homeland.
    Mr. Langevin. OK, very good. Well, let us know how the 
committee can help you in doing that and let's hope we see 
action in weeks not months.
    Mr. Secretary, I want to turn our attention to the issue of 
systemically important critical infrastructure. I think that 
the Colonial Pipeline incident has demonstrated how a cyber 
incident affecting a single company can cause significant 
consequences for our economy and National security. So, do you 
think that an approach focused on systemically important 
providers similar to the Section 9 list from the Obama 
Executive Order is useful to mitigating risk? Will you commit 
to working with me on legislation to codify a new social 
contract with systemically important critical infrastructure?
    Secretary Mayorkas. Congressman, I share your focus on 
critical infrastructure. I know that we across the Department 
and, of course, particularly in CISA, share your concern. I 
look forward to working with you on legislation, if indeed, 
that proves to be the best vehicle to bring strength to our 
focus.
    Mr. Langevin. Thank you on that. The last question, Mr. 
Secretary. So, I have some concerns about how the Colonial 
Pipeline incident response was handled in the interagency. I 
strongly believe that that whole issue was a significant cyber 
incident and should have--we should have seen the stand-up of a 
cyber unified coordination group. Even if the UCG was not 
established though, I feel that DHS as the lead agency for 
asset response, likely should have coordinated the interagency. 
I realize that decisions there were not made by you, so, 
setting aside, this specific incident, can you walk us through 
what DHS's role normally would be under the PPD-21, PPD-41, and 
the National Cyber Incident Response Plan?
    Secretary Mayorkas. Let me assure you, Congressman, that we 
did, in fact, follow and execute an interagency model. We were 
in close communication, of course, with the White House, with 
Anne Neuberger, whose expertise and leadership in this area is 
so renown and deservedly so. I worked very closely with 
Senator--forgive me--Secretary Granholm. I was linked up with 
Secretary Buttigieg. We were so closely connected throughout 
the interagency that I can assure you that that interagency 
paradigm that we all ascribe to was executed in full.
    Mr. Langevin. OK. Thank you, Mr. Chairman.
    Chairman Thompson. The gentleman's time has expired. The 
Chair recognizes Mr. Bishop for 5 minutes.
    Mr. Bishop. Thank you, Mr. Chairman. Secretary Mayorkas, 
Mr. Guest previously made a point of your testimony, bottom of 
page 2. It says, since April 2020, the number of encounters at 
the border has been elevated. Just to put a finer point on what 
he says, here is what elevated looks like. You see that blue 
line. You are familiar with this. Just for the sake of the 
committee and members of the public who may be looking, that 
blue line at the top that goes up higher than any other line 
and then levels out, that is elevated. By your expectation the 
last time we had--we were together in March, you anticipated 
that, the highest levels on a sustained basis in over 21 years. 
Here is another chart of it. This is the Biden administration 
here. You see what happened in the Trump administration 
curtailed and then this enormous continuing spike. Your 
understatement suggests that the administration's out of touch 
with the dynamics of this situation.
    Also, Secretary Mayorkas, you say in that same statement 
that the number of encounters has been elevated, ``due to on-
going violence, natural disasters, food insecurity, and poverty 
in the Northern Triangle countries.'' You do know, don't you, 
that the principal cause of this surge is changes in policy by 
the Biden administration from the previous administration, and 
the factors that you cite were prevalent in the Trump 
administration and prior administrations as well. So, that 
doesn't--that didn't cause the change. Would you agree, sir?
    Secretary Mayorkas. I would respectfully disagree with you, 
Congressman. We have----
    Mr. Bishop. For what reason?
    Secretary Mayorkas. Those of us who have addressed 
challenges at the border for many, many years have seen spikes, 
decreases, spikes again, decreases again. It is a very dynamic 
situation. It is overdue that we address the root causes of 
irregular migration and multi----
    Mr. Bishop. Well, you are often talking about what we ought 
to do. I am just asking about the cause as you have deciphered 
it. I understand, I will take your answer that you don't agree 
with me. When I had 5 minutes with you in March, I asked you 
whether you expected that the administration's changes in 
policy would trigger this surge or you were surprised by that 
development? You said that you had no expectation either way, 
but we did what we had to do. Let me, this is, I don't know 
that I had any particular expectation one way or the other. I 
just knew what we needed to do when we confront a situation 
and, in fact, we are doing it. But as this has developed, it is 
true. I have learned, and it is true, isn't it, that the CBP 
briefed incoming Biden administration officials that the 
contemplated changes to policy, such as suspending or 
terminating MPP would lead to exactly this surge.
    Secretary Mayorkas. Congressman, when I had the privilege 
of engaging with you back in March, the concern was the 
overcrowding of Border Patrol facilities----
    Mr. Bishop. Yes, sir. I am not----
    Secretary Mayorkas [continuing]. By a private company----
    Mr. Bishop [continuing]. Asking you to go on a different 
tangent, Mr. Secretary. I am just asking whether or not you 
were briefed that these changes would lead to this type of 
surge?
    Secretary Mayorkas. If I may, I was not----
    Mr. Bishop. Yes or no, sir?
    Secretary Mayorkas. I was not----
    Mr. Bishop. Looks like you won't answer the question.
    Chairman Thompson. Let's, excuse me----
    Secretary Mayorkas. If I may have a moment----
    Chairman Thompson. Excuse me, Mr. Secretary. Mr. Bishop, 
please allow the witness to answer the question and you can 
then follow up.
    Mr. Bishop. I would be glad for him to elaborate, Mr. 
Chairman. I would just like him to answer that question.
    Secretary Mayorkas. Congressman, I was briefed on the 
border situation when I assumed office. In addition, if I may, 
when we engaged in March, the focus was on the overcrowding of 
Border Patrol facilities by unaccompanied children. I said then 
that we had a plan and that we were executing on our plan and 
that it would take time. The situation in the Border Patrol 
facilities is drastically different than it was then. In fact, 
we did execute on our plan and----
    Mr. Bishop. I will reclaim my time of which I have only got 
about another 30 seconds, Mr. Secretary. Tens of thousands of 
migrants have been admitted into the country on the premise of 
having an asylum claim. I understand that the majority, maybe 
the vast majority, are determined not to be valid. What is the 
administration doing to remove from the country those whose 
claims, asylum claims, are either not being pursued any further 
or have been determined invalid?
    Secretary Mayorkas. Families, Congressman, who make claims 
for asylum under the laws of the United States are placed in 
immigration proceedings to seek to advance those claims. If 
those claims are granted by an immigration judge, they are 
granted asylum under our laws. If those claims are rejected by 
a judge, and appeals prove unsuccessful, those individuals are 
removed from the United States in accordance with the law.
    Mr. Bishop. Mr. Chairman, in light of my time having 
expired, I request unanimous consent for the submission of 
these 2 charts that I displayed during the testimony. Thank 
you, sir, and I yield back.
    Chairman Thompson. Without objection, so ordered.
    [The information follows:]
                  Charts Submitted by Hon. Dan Bishop
                  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Thompson. The Chair recognizes the gentleman from 
New Jersey, Mr. Payne, for 5 minutes.
    Mr. Payne. Thank you, Mr. Chairman. Mr. Secretary, it is 
evident that there were multiple failures leading up to and 
during the siege of the U.S. Capitol on January 6, including 
the 5 standby responses that the Pentagon relayed to the 
National Guard during the attack, and the complete and utter 
failure of both DHS and the FBI in not issuing a threat 
assessment or joint intelligence bulletins specific to the 
January 6 joint session of Congress. I know you were not 
Secretary at the time, but the last time you were here, we 
received--we reviewed your Department's failures that allowed 
the violent mob to ransack the Capitol and depart without being 
arrested or detained. Can you assure this committee that DHS's 
failure to issue a threat assessment was not part of an attempt 
by the Trump administration to leave the Capitol and Congress 
undefended?
    Secretary Mayorkas. Congressman, I am not in a position to 
editorialize on actions of the--or inactions of the prior 
administration. I am focused on lessons learned and what we can 
do to make sure that our responsibilities are fulfilled. In 
fact, we have taken significant steps in that regard. We issued 
the first NTAS Bulletin in January. The first in quite some 
time. Since then, we have issued information bulletins to 
State, local, Tribal, and territorial partners with respect to 
the false narratives that we are observing on social media to 
make sure that the horrific events of January 6 do not happen 
again.
    We certainly have reviewed the events leading up to January 
6. We continue to review those. We continue to draw lessons 
learned and we are very focused on the point of your question, 
which is the critical dissemination of information to equip 
local law enforcement and local communities in responding to 
events to prevent them and to respond should they tragically 
occur.
    Mr. Payne. OK, but wouldn't part of that lessons learned be 
trying to assess the prior administration's lack of response to 
this? Wouldn't that be part of lessons learned?
    Secretary Mayorkas. Most certainly. We did note the fact 
that products were not disseminated as robustly as we have 
begun to do and we hope to continue to do.
    Mr. Payne. OK. You know we always talk about defending the 
homeland from, you know, foreign or domestic. To the extent 
that we had a rogue administration potentially in the White 
House, that also has to be assessed, correct?
    Secretary Mayorkas. Well, Congressman, we look at the 
events. We try to look at them and we succeed in doing so 
through an apolitical lens, as I articulated at the very 
outset. Domestic terrorism we look at in an ideology-neutral 
fashion. We look at the information that we are receiving and 
we ask ourselves what is its connectivity to violence? What can 
we do to ensure that communities across the country are 
prepared, can prevent actions? We work to achieve partnership 
with our State, local, Tribal, and territorial communities.
    Mr. Payne. Just so we are clear, I am being apolitical as 
well. It is not a Republican or Democrat irrespective of who 
was in the White House at the time, that assessment needs to be 
made regardless of party. So, this is apolitical for me as 
well, sir.
    DHS and this committee have been warning about the threat 
of domestic terrorism for over a decade now. I know the 
Chairman has been consistent in his concern for this issue and 
I have followed his lead as I have come on the committee and 
learned. As far back as 2009, DHS warned about a resurgence in 
right-wing extremism----
    Chairman Thompson. The gentleman from New Jersey's time has 
expired.
    Mr. Payne. Thank you, sir.
    Chairman Thompson. I recognize the other gentleman from New 
Jersey, Mr. Van Drew, for 5 minutes.
    Mr. Van Drew. Thank you, Chairman. Mr. Secretary, you must 
have noticed, you must feel it, you must see it that there is a 
crisis on our Southern Border. I know that you say there isn't. 
The administration say that there isn't. But if you speak 
with--you can feel the frustration of so many Congress people 
that are even here today questioning you. The bottom line is 
illegal border crossings are at a 21-year high. Statistics 
don't lie. The bottom line is you can see the videos. You can 
visit these sites. You can see the pictures. It is just all 
there. It is real and it is not something in the past. Frankly, 
I don't even want to talk about the past. I want to talk about 
what is happening now.
    You know, over 150,000 people a month and the children. 
Somebody mentioned what a wonderful job we are doing with the 
children. Well, let me tell you what is happening to children. 
Children are being abused as they cross the border. Children 
are being abused before they get to the border. They are being 
used as drug mules. They are being sexually abused. So are 
women and families. I mean, this is horrific. It is inhumane. 
It is wrong. I feel like I am in bizarro world when we say that 
it doesn't exist. It does. We can see it. You can go there. You 
can look at it. It is there. It is there now, right now. Our 
border towns, processing facilities, and the Customs and Border 
Protection agents are completely overwhelmed. Yet, the 
President's budget proposal has a 0 percent, 0 percent increase 
in Homeland Security funding for 2022.
    Furthermore, and I think this is bizarre to me, the budget 
does not mention border security. Regardless of your partisan 
positions on things or anybody's positions on things--and I am 
not trying to give you a hard time--but how can you have a 
budget, a 72-page report, and not mention budget security? 
Whatever you think about it, we know that something needs to be 
done. The Customs and Border Protection fiscal year 2022 
request is almost $300 million below the 2021 level. There is 
no call for funding for additional Border Patrol agents or 
Customs and Border Patrol officers. They are suffering down 
there. The people who are working there are suffering. The 
people who live there are suffering. The people in the country 
are suffering. Quite frankly, the undocumented that are coming 
across are going through hell in many cases as I mentioned. We 
aren't treating children well. The Customs and Border 
Protection Procurement Construction and Improvements account 
was cut in the President's budget by almost 50 percent from the 
2021 enacted level. It is awful.
    In addition, I am concerned that the President's budget 
left out necessary funding for Coast Guard needs. If we get 
time, we could talk about that a little bit later. I am 
grateful that the budget includes the much-needed 
recapitalization project for training in Cape May, which is in 
my district. The budget does little to address the $2 billion 
backlog in the service currently. We need to address the aging 
IT infrastructure of the Coast Guard without a doubt. This 
budget doesn't accomplish that. It spends so much and it 
doesn't accomplish that. That is, again, the bizarre, I don't 
know what other word to use, part of it all.
    Now, Mr. Secretary, as you know, President Biden issued a 
proclamation on his first day in office to pause construction 
of the border wall. Why? I don't know, but he did. And pause 
the obligation of funds for the wall. The Government 
Accountability Office issued a report on Tuesday this week 
suggesting that the Department of Homeland Security submit a 
time line to the committee dealing how DHS--dealing with how 
DHS plans to obligate its Congressionally-appropriated funds. 
This time line is necessary to ensure that this committee 
maintains strong oversight over the Department and the 
administration does not replace priorities established through 
the legislative process with its own agenda. Will you please 
commit to providing the committee with this time line?
    Secretary Mayorkas. Congressman, I have to respond.
    Mr. Van Drew. Sure, I want to you respond. Mr. Secretary, I 
want you to respond.
    Secretary Mayorkas. Please allow me to respond to some of 
your preliminary remarks. They require a response. I share your 
position that the smugglers and the traffickers who exploit 
children are heinous criminals that need to be addressed. In 
fact, we have a number of law enforcement operations to elevate 
the attack on those smuggling and trafficking organizations 
over and above the work that was previously done, No. 1.
    No. 2, we are in fact addressing children in a more humane 
way than was previously the case. In the prior administration, 
Congressman, unaccompanied children were expelled. We are now 
receiving those children and assessing the claims for 
humanitarian relief to which they are entitled under American 
law. We are no longer expelling those children, those 
unaccompanied children, No. 1.
    Mr. Van Drew. I don't mean to interrupt you, Mr. Secretary, 
but, yes, after they have gone through hell to get here, after 
we are not committed to the agreement we had with the Northern 
Triangle and with Mexico, which was much more secure. They were 
more secure. Our country was more secure. We have less 
security----
    Chairman Thompson. The gentleman's time----
    Mr. Van Drew [continuing]. Now than we had then.
    Chairman Thompson. The gentleman's----
    Mr. Van Drew. I look----
    Chairman Thompson [continuing]. Time from New Jersey has 
expired. The Chair recognizes the gentleman from California for 
5 minutes, Mr. Correa.
    Mr. Correa. First of all, let me thank our Secretary for 
being here today. Sir, welcome. A quick question, sir. Under 
the prior administration, DHS failed to provide Congress with 
the 2018 quadrennial, every 4-year, Homeland Security Review. 
This report is important to provide effective oversight by us, 
Congress, of DHS and to make sure that your department has the 
assets, capabilities, budget, and policies to address the 
evolving threats. Will you commit here, sir, today to deliver 
Congress, us, the 2022 Quadrennial Homeland Security Report?
    Secretary Mayorkas. We will indeed do so, Congressman.
    Mr. Correa. Thank you. Mr. Secretary, I want to talk about 
the border and Border Patrols. My colleagues have made a good 
point. We need more agents. A number of years ago, this 
committee had hearings on hiring new Border Patrol officers. 
Back then, the problem was that most recruits couldn't pass the 
test or meet the qualifications, or most importantly, pass a 
polygraph test. The Anti-Corruption Act requires a polygraph 
test for all new CBP law enforcement officers. I know some vets 
may be exempt from this. But, Mr. Secretary, are we still 
having the same problems hiring agents?
    Secretary Mayorkas. Congressman, we are very focused on 
recruiting and hiring Border Patrol agents. We are looking at 
how the hiring process can be reformed to achieve greater 
efficiency. Indeed, we are focused on that critical effort.
    Mr. Correa. Sir, let me turn again to the border. I want to 
El Paso. I took a tour of the area. I met 2 young girls there, 
2 refugees, Yuri and Yareli, 2- and 5-year olds. They were 
thrown over the border wall by smugglers. In this case, the 
wall didn't work. They were saved because 2 alert Border Patrol 
officers saw them with their high-tech equipment. They were 
able to detect an intrusion with high-tech equipment. So, 
technology worked. So, my question, sir, is this what you have 
in mind when you talk about your budget and protecting our 
Nation's security, more effective technology?
    Secretary Mayorkas. I most certainly do, Congressman. Thank 
you both for recognizing the force multiplier that technology 
is, as well as the extraordinarily heroic work of the United 
States Border Patrol.
    Mr. Correa. Mr. Secretary, again, talking about the border 
and illegal drugs at the border. I agree with my colleagues, 
record number of illegal drug seizures at the border. But I 
would say, sir, that these go hand-in-hand with a record-high 
demand and consumption for illegal drugs in our Nation. Would 
it be fair to say that our dollars are purchasing more and more 
illegal drugs and this is in great part driving the record 
number of importations and illegal drug seizures at our border?
    Secretary Mayorkas. Congressman, tragically, the demand for 
narcotics is one of the causal factors. In fact, the data shows 
that most narcotics are sought to be smuggled through the ports 
of entry, which is yet another reason why we are focused on 
innovative technology, which is the greatest tool to interdict 
the flow of narcotics through the ports of entry.
    Mr. Correa. So, more technology, more effective homeland 
security.
    Secretary Mayorkas. Indeed. With respect to the flow of 
illegal narcotics, the prior administration failed to 
promulgate critically-needed regulations to implement the STOP 
Act. But we moved very swiftly in the service of Senator 
Portman's leadership in that area to implement those 
regulations. We are very dedicated to that fight.
    Mr. Correa. Secretary Mayorkas, thank you for being here. I 
look forward to continuing to work with you to secure the 
homeland. Mr. Chairman, with that, I yield.
    Chairman Thompson. The gentleman from California yields 
back. The Chair recognizes Mr. Norman for 5 minutes.
    Mr. Norman. Thank you. Thank you, Secretary Mayorkas. 
Secretary, can you hear me OK?
    Secretary Mayorkas. I can, thank you, Congressman.
    Mr. Norman. Have you ever had a medical physical?
    Secretary Mayorkas. Congressman, I have and that is--of 
course I have, and that is quite a private question to pose to 
me.
    Mr. Norman. Do they, when you had the medical physical--I 
am not talking about what they found, but did they physically 
get you in the office, talk to you, see what is going on, and 
was that effective?
    Secretary Mayorkas. Yes, sir.
    Mr. Norman. OK. Why then would the leader of this country 
and the Vice President not want to go physically look at the 
border, talk to the Border Patrol agents that you say you want 
to find the truth, why, if it applies in so many other fields, 
why does it not apply with this? In fact, is it fair if you had 
a doctor that laughed at you as the Vice President did when 
asked to come to the border, can you comment on that? Does that 
make sense to you?
    Secretary Mayorkas. I most certainly can. I consider that 
question to be quite unfair and disrespectful. Let me be very 
clear. The President and the Vice President have requested and 
directed me to visit the border, which I have done on multiple 
occasions. I would like to cite to my exchange with Ranking 
Member Katko with respect to my work as a Federal prosecutor 
and the direction that I provided to State and local law 
enforcement to Federal investigators to visit particular 
scenes.
    Mr. Norman. Well, I----
    Secretary Mayorkas. They directed--I am sorry, if I may. If 
I may finish, because----
    Mr. Norman. I am reclaiming my time. You made the 
statement--you made the statement----
    Secretary Mayorkas. I am sorry. I must----
    Mr. Norman. I am reclaiming my time. You made the statement 
that my question was unfair. I am making the statement that 
your comments are just words and they are very unfair. I asked 
you a simple question. I would like for you just to answer 
simply. Does it make sense for the leaders of the free world to 
go to talk to and see what is going on at the border? You 
didn't answer it with Mr. Katko. All I am saying is we don't 
want words. We don't want--we want actions. When you say you 
are trying to hire Border Patrol agents, where is the money?
    Secretary Mayorkas. We have, Congressman, the funds to hire 
Border Patrol agents to fill the vacancies, No. 1. No. 2, I am 
the Secretary of Homeland Security and it is my responsibility 
to manage the border at the direction of the President and the 
Vice President. I have visited the border on multiple 
occasions. No. 3,----
    Mr. Norman. Have you talked to the Border Patrol agents?
    Secretary Mayorkas. No. 3--and No. 3,----
    Mr. Norman. Have you talked to the Border Patrol----
    Secretary Mayorkas [continuing]. Finally,----
    Mr. Norman [continuing]. Agents?
    Secretary Mayorkas. No. 3 and finally, my----
    Mr. Norman. Have you spoken with the Border Patrol agents? 
That is the question.
    Secretary Mayorkas. I most certainly have. I most certainly 
have. No. 3, if I may, the Vice President served as the 
attorney general of a border state, of California, and she is 
quite familiar with the situation on the border.
    Mr. Norman. But she is laughing at it. She has been----
    Secretary Mayorkas. I have met with her on----
    Mr. Norman. I am reclaiming my time,----
    Secretary Mayorkas. That is absolutely----
    Mr. Norman [continuing]. Secretary Mayorkas.
    Secretary Mayorkas. That is absolutely----
    Mr. Norman. I have got a limited----
    Secretary Mayorkas [continuing]. Unequivocally untrue.
    Mr. Norman. I have got a limited amount of time. She is 
laughing at it. When you say----
    Secretary Mayorkas. That is absolutely----
    Mr. Norman [continuing]. It is an insult----
    Secretary Mayorkas [continuing]. Unequivocally----
    Mr. Norman. It is an insult--reclaiming my time--for you to 
say that you are looking at the border wall and looking at it, 
when you are not--what do you have to look at? You are not 
building it. When you say technology, what I have heard, how 
effective once the million to 2 million people are in this 
country illegally, how effective is technology going to be to 
root them out and to find out who they are when you don't know 
who is coming in in the first place? Simple question.
    Secretary Mayorkas. Congressman,----
    Mr. Norman. Simple question.
    Secretary Mayorkas [continuing]. The factual premise of 
your question is inaccurate.
    Mr. Norman. OK, so you just don't know?
    Secretary Mayorkas. Technology has proven to be an 
effective force multiplier.
    Mr. Norman. How about stopping them from coming in the 
first place? How about knowing who is coming in the country? Is 
that not common sense?
    Secretary Mayorkas. It is a multi-pronged effort, and we do 
that as well.
    Mr. Norman. Multi-prong. Wow, multi-prong. It is like all 
the other words. It is basically you are not doing anything 
because the numbers don't lie, Secretary Mayorkas. Unless you 
dispute the 180,000 that came last month as opposed to the, in 
the previous administration, 20,000 for the same month in 2020. 
Now, once they are in the country, it is hard to get them back 
out. The Border Patrol agents we talked with, you know why they 
are demoralized? They are changing diapers. You will not take 
the necessary steps to stop it. You can say you are. But in the 
74-page budget this administration has put out, you know how 
many times border is mentioned? Not once. You know how many 
times climate is mentioned? Fifty-four times. It is not a 
priority. I am just telling you this is a crisis. I would 
invite you. We are going for a second time. Many have been far 
more. We are going for a second time. We would invite you to 
come talk to the agents. See the children that are put with--
you got 2- and 3-year olds, put with----
    Chairman Thompson. The gentleman's time has expired. The 
Chair recognizes the gentlelady from Michigan, Ms. Slotkin, for 
5 minutes.
    Ms. Slotkin. Thank you, Mr. Chairman. Secretary Mayorkas, 
thank you for joining us today. I am struck as we head to the 
20th anniversary of 9/11 just how different the homeland issues 
are from when, you know, DHS was stood up. Where most Americans 
were, you know, worried about threats from foreign actors, from 
foreign terrorists and attacks on the homeland. Fast-forward 20 
years, we are talking about cyber attacks, the border, domestic 
terrorism. It is very different.
    So, what I want to ask is about those pivots to those very 
different things that are threatening Americans. Particularly 
on cyber, I would just note it feels like all roads lead back 
to the Department of Homeland Security, particularly in the 
last couple of weeks. First, because these attacks have really 
started to affect the average American. They are affecting our, 
you know, gas, and our meat, and our video games. I am, you 
know, standing with farmers and they are asking me about 
cybersecurity. You all at CISA are really the 9-1-1. You are 
the 9-1-1 call center for cyber attacks on our businesses, on 
our local governments. It is critical that you be well-funded 
and well-staffed and ready to take on that responsibility.
    Second, yesterday in the summit between President Biden and 
President Putin, you know, one of the big things where the 
President put down a marker was on this list of 16 different 
critical infrastructure sectors and how it was important that 
the Russians understood that those sectors meant something to 
us. So, I guess my first question is can you please tell us how 
you and CISA are prepared to take on this additional 
responsibility? Particularly since, yes, you know, when it 
comes to deterring Russian cyber attacks, Chinese cyber 
attacks, often resilience is the best way to deter future 
attacks. So, tell me about CISA. We are waiting for your 
questions, your concerns, your asks on money and resources. 
Tell us what you have done to prepare.
    Secretary Mayorkas. Congresswoman, thank you so much for 
recognizing the fact that CISA is indeed, as we have termed it, 
the quarterback of the Federal Government's cybersecurity 
efforts. We have requested funding of Congress. We are grateful 
for the support that Congress has provided. We have champions 
on this committee with respect to the work of CISA. We 
received, of course, $650 million already and we are requesting 
additional funds.
    Ms. Slotkin. Yes.
    Secretary Mayorkas. The model that we--that model that we 
rely upon and that we are advancing is the public-private 
partnership. That is what is critical. Not only the partnership 
across the Federal enterprise with respect to all of the 
Government agencies that are invested in and dedicated to this 
effort, but a partnership with the private sector as well. It 
is so critically important. That is our focus.
    Ms. Slotkin. Thank you. I appreciate that. Given that the 
President put down this marker on these 16 different sectors 
that I think were identified by CISA, I would really 
appreciate--I think we all would--if DHS would come back to us 
in a couple months and give us an update.
    In those 16 sectors, have the Russians tried to penetrate? 
Have the Chinese tried to penetrate? Have ransomware groups 
emanating from those countries tried to penetrate? I think 
hearing back from you is a real accountability for these 
nation-states that are allowing these groups to mock around 
with the average American's stuff. The stuff we need. So, I 
would make that request.
    Pivoting to the issue of domestic terrorism. You came in 
front of this committee and talked about how domestic terrorism 
is now the most significant terrorist threat threatening the 
average American. I know the White House just put out their big 
domestic terrorism strategy. That is a hard pivot to go from 
focusing on foreign terrorism to domestic terrorism. In the 
brief time that you have left, can you talk to me about, again, 
how many analysts? What does you budget look like? Tell me how 
many people and the scope you have working on this threat 
compared to foreign terrorism, if you could.
    Secretary Mayorkas. Congresswoman, thank you. We will, 
indeed, update you in a couple months as you have requested 
with respect to the cybersecurity challenge in the 16 sectors 
specifically. We have created a dedicated unit within the 
Office of Intelligence Analysis to focus on domestic terrorism. 
We have focused our efforts on information gathering on 
intelligence to not only best learn of the threat, but to be 
able to disseminate information to our State, local, Tribal, 
territorial partners. We have a concerted effort. We created 
the Center for Prevention Programs and Partnership, CP3, to 
also focus on this effort and to develop partnerships that are 
so critical to this mission. I would welcome the opportunity. 
We would welcome the opportunity to provide greater details to 
you about our intense focus on this mission set, which is quite 
frankly, as I have articulated previously, the greatest 
terrorism-related threat that we now face in the homeland.
    Chairman Thompson. The gentlelady's time has expired. The 
Chair recognizes the gentlelady from Iowa, Mrs. Miller-Meeks, 
for 5 minutes.
    Mrs. Miller-Meeks. Thank you, Mr. Chair. Secretary 
Mayorkas, thank you for coming before us here today. As you may 
know, in April Ranking Member Katko and I wrote a letter to 
yourself and the Secretary of Health and Human Services, 
Becerra, regarding the vetting for sponsors and caregivers of 
unaccompanied alien children at the border. We have not yet 
received a response. Can you commit to providing us response on 
this within the next week?
    Secretary Mayorkas. Congresswoman, I apologize if we failed 
to respond to your letter, and we most certainly will as 
quickly as possible.
    Mrs. Miller-Meeks. Thank you.
    Secretary Mayorkas. I pride myself on responsiveness and we 
have received--we have many committees to answer to and I 
apologize and will address that immediately.
    Mrs. Miller-Meeks. Thank you. Yesterday, I questioned 
Secretary Becerra on the vetting required for UACs and he 
stated that, ``We are not going to do anything that imperils 
the safety and care of the child. Some of the children are 
being dropped off over the border wall and have perished and 
they are brought here by human smugglers and traffickers.'' Do 
you agree that the smugglers put children at risk?
    Secretary Mayorkas. Most certainly and that is why we have 
enhanced our law enforcement efforts to address the smuggling 
organizations and the traffickers.
    Mrs. Miller-Meeks. So, you agree, Secretary Becerra agrees, 
and I agree that these smugglers and traffickers are putting 
children in danger. Yet, we have seen no action from the Biden 
administration to disincentivize smugglers from bringing 
children as young as 1 across the border. If we are serious 
about protecting children, we need to stop making it profitable 
for smugglers to bring children into the United States. Your 
administration's open border messaging is putting children's 
lives at risk and 79,948 children have crossed our Southwest 
Border.
    While I was in the Rio Grande Valley sector earlier this 
year, Border Patrol agents told me that migrants are paying on 
average $4,000 apiece to be smuggled into the United States. 
Human smugglers are openly advertising their services on 
Facebook, claiming that they can promise a 100 percent safe 
journey. These cartels are making billions of dollars smuggling 
individuals and drugs into our country. Because of this, your 
agents told me that they feel like we are aiding and abetting 
transnational criminal organizations and that the policies of 
the previous administration were working. If we want to tackle 
root causes, as the Biden administration continues to state, 
then we should not be promoting policies that enrich the 
cartels and lead to worsening corruption in the Northern 
Triangle countries.
    Secretary Mayorkas. Congresswoman----
    Mrs. Miller-Meeks. Additionally, yesterday I met with young 
people who have come into the United States legally with their 
parents as children on the visa status, but yet these 
documented dreamers are soon to be deported. I sponsored a bill 
regarding this and year after year, their families have applied 
for the green card lottery only to be denied. When they contact 
your staff, they are told that they should get married or leave 
the country and come through the Southern Border. They are 
young adults that are being penalized because their parents did 
not commit the crime of coming to the United States illegally. 
It would be incumbent upon you and your staff to address that 
issue.
    Finally, I have cosponsored several bills regarding SIVs, 
or Special Interest Visas. There is no greater urgency for your 
Department than to bring safely to United States those who have 
helped us in Afghanistan during the global war on terror. The 
situation is becoming increasingly more dire with each day that 
passes and with reports that the Taliban has recently closed 
off access roadways. I am a Vietnam-era veteran. I know first-
hand that no one wants to see the image of a helicopter leaving 
a rooftop with people dangling from the footplates. Let us not 
compound the mistakes of the past with inaction in the present. 
Can you commit to working with the State Department and 
Department of Defense with a renewed urgency for evacuating 
these individuals from Afghanistan?
    Secretary Mayorkas. Congresswoman, yes, indeed, we are very 
focused on that, No. 1. No. 2, allow me to thank you for your 
service, which is the noblest thing one can do in one's career. 
No. 3, I share your view of the smuggling organizations, the 
trafficking organizations, and the harm they cause. It is why 
it was such a terrible decision for the prior administration to 
dismantle the Central American Minors Program and eliminate a 
legal and safe pathway for children to arrive in the United 
States who have a legitimate claim for relief under United 
States law.
    Mrs. Miller-Meeks. According to the Border Patrol----
    Secretary Mayorkas. It is why we have----
    Mrs. Miller-Meeks [continuing]. Agents, Secretary 
Mayorkas,----
    Secretary Mayorkas [continuing]. Stood up----
    Mrs. Miller-Meeks [continuing]. Those individuals who come 
into this country and then go back for their hearing, there is 
only 90 percent who do not go to the hearing, 10 percent who go 
to the hearing, that only 10 percent of those 10 percent are 
eligible for asylum. So, I thank you for your answers. I yield 
back by time.
    Chairman Thompson. The gentlelady's time has expired. The 
Chair recognizes the gentlelady from New York for 5 minutes, 
Ms. Clarke.
    Ms. Clarke. I thank you, Mr. Chairman. It is good to see 
you again, Secretary Mayorkas. I applaud your decision earlier 
this year to require State Homeland Security Program and Urban 
Area Security initiative grantees to dedicate at least 7.5 
percent of their award to enhancing their cybersecurity 
posture. I also understand that the administration is seeking 
funding for a cyber response and recovery fund. While I support 
these efforts to provide State and local governments additional 
resources, I believe we get more bang for our buck investing in 
efforts to prevent malicious actors from compromising networks 
in the first place.
    The ever-increasing number of ransomware attacks has 
demonstrated that additional support is needed going forward. 
For that reason, this committee recently passed my legislation, 
the State and Local Cyber Security Improvement Act, which would 
authorize $500 million in annual cybersecurity grants to State, 
local, Tribal, and territorial governments. Do you agree that 
the vulnerability of our State and local governments to cyber 
attacks is a National security threat? That the Federal 
Government should provide a dedicated grant program to 
strengthen State and local cybersecurity?
    Secretary Mayorkas. Congresswoman, thank you for 
championing this effort. I do agree that the cyber 
vulnerability of State and local governments is a Homeland 
Security issue across our Nation. I look forward to working 
with you to see how we can best empower and equip and resource 
State and local governments, especially those that don't have 
the education and resources to strengthen their cybersecurity 
alone.
    Ms. Clarke. I look forward to working with you as well, Mr. 
Secretary. As the Chairwoman of the cybersecurity committee, I 
am extremely concerned about the rise in ransomware and other 
cyber attacks targeting our critical infrastructure. I am 
concerned that we seem to be--to keep relearning the same 
lessons from each other--each of these attacks. We have asked 
CISA to do an enormous job, but we have given them next to no 
regulatory authority over privately-owned critical 
infrastructure. Nor do they have sustained visibility into 
threats on private networks.
    I am working on legislation to close both of those gaps. 
First, by requiring critical infrastructure owners and 
operators to report cyber incidents to CISA. Second, by 
authorizing capabilities CISA has brought--has built through a 
pilot called Cyber Sentry which allows CISA to partner with 
certain strategically-placed critical infrastructure to monitor 
and detect threats in real time. Specifically, threats to 
industrial control systems and operational technology. Would 
you agree that for CISA to be effective, it needs access to 
information about cyber attacks and greater visibility around 
those threats to privately-owned critical infrastructure?
    Secretary Mayorkas. I think, Congresswoman, once again, 
thank you. I do believe that CISA's visibility into what is 
happening across the country is critical to securing our 
homeland against cyber attacks. It is why the public-private 
information-sharing architecture is central to its strategy.
    Ms. Clarke. Can you give me a sense of how your budget 
supports those goals then?
    Secretary Mayorkas. So, we are very focused on resourcing 
CISA. We appreciate this committee's and Congress' support of 
CISA. We have developed teams that most effectively deploy to 
public entities, as well as private entities, to assist them in 
remediation, to assist them in securing their cyber or 
enhancing their cyber hygiene. Working with them to provide 
tools, education, and our expert resources when they are 
otherwise ill-equipped to do so. We are very engaged in the 
partnership. The funding that we have obtained and that we hope 
to continue to obtain will further resource CISA to deploy 
those teams across the country because in cyber, as I have said 
repeatedly, we are only as strong as our weakest link. Under 
those----
    Ms. Clarke. Yes, I agree, Mr. Secretary. I just want to say 
that it has been 6 years since Congress passed the 
Cybersecurity Act of 2015 to incentivize voluntary private-
sector participation and information sharing. The fact is we 
still aren't seeing the kind of robust engagement we had hoped 
for. At some point, we have to go back to the drawing board and 
find a solution that works. I look forward to working with you 
on that. Mr. Chairman, having said that, I yield back.
    Chairman Thompson. The gentlelady yields back. The Chair 
recognizes the gentleman from Michigan, for 5 minutes, Mr. 
Meijer.
    Mr. Meijer. Thank you, Mr. Chairman. Secretary Mayorkas, 
thank you again for coming before the committee today to review 
the Department's budget request and its priorities. I sincerely 
appreciate your willingness to answer our questions. You know, 
in my time today I wanted to drill down on what I hope is a 
major priority for the Department and the administration more 
broadly. That is the U.S. troop withdrawal from Afghanistan and 
ensuring that the safety of our Afghan partners who worked 
alongside us. We have a moral obligation to protect our brave 
allies who put their lives on the line for us. We have been 
working for months to engage the administration to make sure 
there is a plan, with few concrete results.
    We certainly recognize the complexity of the withdrawal and 
understand that there are a lot of interagency components 
involved from the State Department to DHS. But time is running 
out and we are talking about the lives of those who served us 
that we made a commitment to. We need to have more transparency 
and action from the administration beyond on-going interagency 
conversations. The current Afghan SIV program cannot move 
quickly enough to address this challenge and we need to be 
developing an evacuation plan for those Afghan interpreters who 
put their lives on the line alongside U.S. forces.
    There is a precedent for this in Operation New Life during 
the Ford administration in 1975. But today, it has been 
consistently unclear who is charge of this effort and what the 
obstacles actually are. I will talk to one department and they 
will send us over to another. Again, just this interagency 
roundabout. I know that you cannot speak for the State 
Department or Department of Defense or other agencies, but DHS 
is a part of this interagency effort. So, today I wanted to get 
clarity on what DHS's roles and opinions are on this matter. 
So, specifically, Mr. Secretary, does DHS have any objections 
to the Guam option to evacuate our Afghan partners and allow 
their SIV processing to continue in a safer location than 
Afghanistan?
    Secretary Mayorkas. Congressman, I share your dedication as 
I know my partners across the Federal enterprise under the 
leadership of President Biden share your dedication to ensuring 
the safety of those who courageously assisted our troops. I 
need to study the Guam proposal. I know that Guam, of course, 
is an American territory and that has implications. But we are 
focused on this program. I would welcome the opportunity to 
speak with you further about it. I share your dedication to it.
    Mr. Meijer. I would welcome that, Mr. Secretary. Time is 
running out here. I know our staff, you know, talked prior, and 
so I hope we can get an answer on this quickly because the 
diffuse claims that there is some issue on the DHS side with 
having a Guam evacuation relocation plan, to your point, it is 
a U.S. territory, making sure that we can do whatever we can to 
alleviate what concerns those may be. If that is a statutory 
constraint, we can hopefully work as a Congress expeditiously 
in order to alleviate that because I think there is a broad 
sense in Congress that we need to be doing everything we can to 
help out our allies. I understand having spent time in 
Afghanistan and also having, you know, been aware as a solider 
in Iraq of the SIV issues that our interpreters there were 
facing back in under the Obama administration that, you know, 
things get bad slowly and then all at once.
    We need to make sure that we are planning. We need to make 
sure that we are preparing. If there are hesitations in the 
interagency process, I hope that those are brought out into the 
open. That we can work to remedy and to address them as best as 
we can. Again, if there are procedural modifications that can 
be made to alleviate concerns that DHS may have over the Guam 
evacuation, we are here to review to try to push forward those 
legislative options. Because doing nothing is simply not 
satisfactory.
    So, and please, Mr. Secretary, consider us a willing and 
able partner in this, but also one that will be pushing forward 
to make sure that we are leaving no stone unturned. That we are 
not taking no for an answer or just a vague concern for an 
answer, but drilling down, getting clarity, and making sure we 
are doing everything we can for the Afghans who put their lives 
on the line for us and are currently in harm's way while 
awaiting the adjudication of their claims. Thank you, Mr. 
Chairman. I yield back.
    Chairman Thompson. Thank you. The gentleman yields back. 
The Chair recognizes the gentlelady from New Jersey for 5 
minutes, Mrs. Watson Coleman.
    Mrs. Watson Coleman. Good morning and thank you, Mr. 
Chairman. Thank you, Secretary Mayorkas, for being here. First 
of all, let me just say that I am encouraged by a number of 
initiatives as you have advanced today and priorities for DHS. 
I am also very encouraged about your recent administrative 
actions to improve the protections and the pay for the TSA 
workers. These actions do represent significant progress toward 
ensuring that these officers receive the pay protection and 
benefits they deserve. However, they do not place TSA under 
Title 5 of the U.S. Code. Therefore, enabling a future 
administration to roll back these actions without statutory 
protection in place for the work force.
    Secretary Mayorkas, I have a few questions to this extent. 
Would you support the legislative changes such as the passage 
of Chairman Thompson's H.R. 903, the Rights for the TSA 
Workforce Act to build upon the recent actions taken to support 
the TSA work force and to ensure their performance?
    Secretary Mayorkas. Thank you, Congresswoman. We deeply 
appreciate Chairman Thompson's leadership in this area and I 
know that our subject-matter experts are working with his staff 
to provide technical advice with respect to that legislation.
    Mrs. Watson Coleman. So, I am going take it as a 
possibility you are still examining the implications of it?
    Secretary Mayorkas. Yes.
    Mrs. Watson Coleman. Thank you. While your announcement 
included actions to improve the pay for the TSA work force, it 
didn't actually place the employees on the General Schedule 
Wage System, which would ensure that they were getting regular 
increases as people working in like jobs in perhaps other 
agencies. So, would you support placing the TSA employees on 
the GS System that is used by most of the Federal agencies in 
order to align them with pay scales and opportunities akin to 
those with like jobs in other agencies?
    Secretary Mayorkas. Congresswoman, I would support 
providing pay that is at least at the level of the General 
Schedule. I know that there are some positions where adherence 
to the General Schedule might have unintended consequences that 
don't serve the interests of particular employees. So, I 
believe that in my direction internally here in the Department 
of Homeland Security, I wanted to ensure compensation at least 
at the level of the General Schedule.
    Mrs. Watson Coleman. Not only compensation, but moving 
forward the kinds of increases that happen when you are a part 
of a system. Thank you.
    Secretary Mayorkas. I concur.
    Mrs. Watson Coleman. Unfortunately, the President's budget 
request didn't include the funding to implement the changes 
that you announced. So, how do you propose Congress pay for 
those expensive actions? Would you support ending the diversion 
of the Passenger Security Fees into the general fund to ensure 
that those fees go to TSA where they can help pay for these 
work force improvements that are so desperately needed?
    Secretary Mayorkas. Congresswoman, I would very much look 
forward to working with you to review the diversion of those 
funds and whether--and if so, how best those funds could be 
used in the service of the compensation of our TSA work force.
    Mrs. Watson Coleman. That certainly is the most encouraging 
answer that I have gotten to this question in quite a while.
    Last, but not least, we are having a lot of discussion 
about cybersecurity, ransomware attacks on critical pipelines, 
and things of that nature. Would you consider directing TSA and 
CISA to work collaboratively to issue required cybersecurity 
standards for all modes of transportation either through 
security directives or full notice and comment regulations?
    Secretary Mayorkas. Congresswoman, let me, if I can, cite 
to the work that CISA performed with TSA. TSA issued a security 
directive to the pipeline industry in the wake of the Colonial 
Pipeline attack. That was an example and a terrific model of 
two offices working together to address one of our critical 
infrastructure sectors. We are looking at critical 
infrastructure across the board and how best we can use our 
administrative tools and our regulatory tools that are resident 
in different parts of the Federal Government to bring a 
cohesive approach to an increased cyber hygiene, and something 
I would also welcome discussing with you further.
    Mrs. Watson Coleman. Well, thank you very much, Mr. 
Secretary. Mr. Chairman, I yield back.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentleman from Texas for 5 minutes, Mr. Pfluger.
    Mr. Pfluger. Thank you, Mr. Chairman, and thank you, 
Ranking Member. Mr. Secretary, thank you for being here. I 
represent Texas' 11th Congressional District and I, over the 
past few months, have traveled to all 29 counties. I hold town 
halls. I talk to law enforcement. I want to say that the 
situation at the border is a crisis of epic proportion. The 
amount of drugs that are entering this country, the human 
trafficking, the people that are being exploited, it is a 
complete tragedy and a crisis. Mr. Secretary, when is the last 
time that you talked to a Customs and Border Protection agent 
in the El Paso sector or the Rio Grande Valley or any sector in 
Texas?
    Secretary Mayorkas. I believe, I am not sure if it was 
yesterday or certainly within the last few days.
    Mr. Pfluger. Did they tell you----
    Secretary Mayorkas. I did speak to----
    Mr. Pfluger. Did they----
    Secretary Mayorkas. I speak to the Border Patrol multiple 
times every week, if not multiple times every day.
    Mr. Pfluger. Mr. Secretary, those agents are they saying 
the word ``help'' to you? Because that is what they are saying 
to me every time I talk to them. The law enforcement agents in 
my district are saying that because there has been an 
abdication of protecting that border, we are having to send DPS 
troops, National Guard troops, down to the border, which is 
leaving our communities less safe, less secure, when we have an 
immense amount of drugs that are entering. Just 2 weeks ago, 
Saturday, in one of the northern-most counties of my district, 
we had two high speed chases. In one of them, the sheriff told 
me there was an F350 that was full of 20 illegal immigrants. In 
the next one, there were 7 in a small sedan. Five were 
apprehended, 2 were got-aways, were not apprehended. In that 
vehicle, over $500,000 worth of fentanyl, methamphetamines, 
cocaine, and other drugs. Mr. Secretary, we are--this is a 
crisis that is hitting my community and we are not a border 
district. How are we going to curb the flow of 180,000 folks in 
May, the amount of drugs and fentanyl that are entering this 
country, the children that are being exploited? What is our 
path forward?
    Secretary Mayorkas. Congressman, let me answer that quite 
precisely. Let me first correct a data error. It is not 180,000 
individuals. It is 180,000 encounters. That is an important 
distinction because we are expelling single adults under Title 
42 of the United States Code. We are seeing repeat offenders 
under Title 42. So, it is not 180,000 individuals. It is 
180,000 encounters. I wanted to make that note.
    When I was a Federal prosecutor in the 1990's, I 
prosecuted----
    Mr. Pfluger. Mr. Secretary, I want to know----
    Secretary Mayorkas [continuing]. Smuggling cases that 
were----
    Mr. Pfluger. Mr. Secretary, let me reclaim my time. I am 
asking what the plan is to curb the flow?
    Secretary Mayorkas. Exactly what we are--thank you so much, 
Congressman. Exactly what we have asked of this Congress in the 
President's fiscal year 2022 budget. Provide us with the 
funding to resource innovation and technology, which is the 
greatest force multiplier in the service of security at our 
borders, both southern and northern.
    Mr. Pfluger. Mr. Secretary, we are seeing a cut in CBP-
specific funding. We have a $6 trillion proposal from the 
President, and meanwhile, every single agent that I talk to, 
whether it is Border Patrol, ICE, Customs, is saying ``help''. 
They are asking me for help in technology. Their morale is 
down. They are not able to do their jobs because the priorities 
haven't been issued.
    Secretary Mayorkas. They are asking you for help in 
technology just as we are asking Congress for help in 
technology. That is precisely why we are directing our funding 
request in the service of enhanced technology, the greatest 
force multiplier to achieve security.
    Mr. Pfluger. Well, and I don't disagree with that. At one 
point in time as a Senator, as Senator Biden, he said you can 
tell me what you value, but show me your budget and I will tell 
you what you value. I think that is what we are looking at 
right now is that in my district and in Texas, we have a crisis 
of epic proportion that we don't seem to be able to get our 
arms around. The policies that we need are not there to curb 
that flow. So, when it comes to our budget, when it comes to 
putting our best foot forward, Mr. Secretary, we are asking and 
demanding that we stop this mass surge and crisis that is 
hitting my community and every single other community in the 
State of Texas and on these border--in these border States.
    Secretary Mayorkas. Congressman, we have a strategy. We are 
executing that strategy. I am confident in the strategy. I am 
confident in the proposal that we have submitted to this 
Congress to best resource that strategy.
    Mr. Pfluger. Thank you, Mr. Chairman.
    Chairman Thompson. The gentleman from Texas' time has 
expired. The Chair recognizes the gentlelady from Nevada, Ms. 
Titus, for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman. Mr. Secretary, I would 
like to echo the sentiments of some of the others on this 
committee and say how relieved and reassured we are to have you 
in this position, especially after the parade of incompetents 
who have been before this committee over the last 4 years.
    I would like to ask you, first though, about the budget 
that cuts $15.3 million in UASI funding, especially in the wake 
of the attack on the Capitol and with a new emphasis on 
domestic terrorism that seems to be a bigger threat now than 
foreign terrorism.
    Secretary Mayorkas. Congresswoman, we are focusing our 
intelligence and analysis resources on the greatest terrorism-
related threat to the homeland, and that is domestic terrorism. 
We have created CP3 as it is known by its acronym, the Center 
for Prevention Programs and Partnership. We have created a 
discreet unit within the Office of Intelligence and Analysis to 
focus on domestic terrorism. We are building an IT 
infrastructure to more ably disseminate terrorism-related 
information to our State, local, Tribal, and territorial 
partners. We are doing so very much in this area and we 
appreciate the President's leadership in issuing the National 
strategy that we are executing on.
    Ms. Titus. Well, I think that is true, but my district is 
Las Vegas and we certainly know what the results of domestic 
terrorism are after the October 1 shooting. We used those funds 
in a very effective way through our fusion center, which works 
with your Department very closely. We would just hate to see 
those cut. So, I hope that Congress can find a way to restore 
some of those dollars.
    Speaking of my district, I would also ask you about 
Temporary Protective Status. I have a large population from El 
Salvador in my district. Folks from there, and Honduras 
especially, are concerned because they are just on hold. They 
don't know when that may be extended, what the courts might do, 
what your Department's position is. Could you address that a 
little bit because they can't go home whether it is a natural 
disaster or armed conflict or something. Many of them have been 
here for a long time and their families have grown up here. So, 
could you tell us kind-of what you are thinking about a time 
line for a decision on TPS?
    Secretary Mayorkas. Congresswoman, I appreciate the 
question a great deal. We are very closely and intensely 
studying the country conditions in El Salvador and Honduras and 
in other countries to determine the status of Temporary 
Protective Status, TPS, for those communities. We are working 
as quickly as we can and appreciate the sensitivity and the 
humanity underlying your questions.
    Ms. Titus. Thank you. If I can work with you in any way, I 
would appreciate that so I can reassure those folks that we 
have their best interests in mind.
    One last question. I chair the subcommittee that oversees 
the Stafford Act. I appreciate the plussing up of the BRIC 
Program. But one of the things I am trying to do is to be sure 
that FEMA has the best personnel possible to carry out some of 
this mitigation and attempt at resiliency. I am trying to get a 
bill passed that would provide similar employment protections 
for FEMA reservists like we do for military reservists. I hope 
you will take a look at that and see if we can work together to 
do that as well.
    Secretary Mayorkas. I very much look forward to doing so 
and I am incredibly excited about our new administrator's 
leadership, Deanne Criswell, and so incredibly honored to work 
alongside the FEMA personnel, and all of the DHS personnel.
    Ms. Titus. I have spoken to her about this too. So, maybe 
we can get it moving. Thank you. Thank you, Mr. Secretary. I 
yield back, Mr. Chairman.
    Chairman Thompson. The gentlelady yields back. The Chair 
recognizes the gentleman from Florida for 5 minutes, Mr. Clyde.
    Mr. Clyde. Thank you, Mr. Chairman. I am from Georgia's 9th 
District. Mr. Secretary, I sent a letter back on March 31 to 
DHS and requested some information about the need to expand 
detention capacity.
    [The information follows:]
             Letter Submitted by Honorable Andrew S. Clyde
                                    March 31, 2021.
Acting Director Tae Johnson,
Immigration and Customs Enforcement, U.S. Department of Homeland 
        Security, 500 12th St SW, Washington, DC 20536.
    Dear Acting Director Tae Johnson: I write regarding my concerns 
surrounding a sole-source, non-competitive contract that Immigration 
and Customs Enforcement (ICE) awarded to Endeavors, the non-profit 
division of Family Endeavors, Inc., to provide family residential 
processing space for migrants. On March 22, 2021, you announced the 
agency had awarded an $86.9 million contract ``to provide temporary 
shelter and processing services for families who have not been expelled 
and are therefore placed in immigration proceedings for their removal 
from the United States.''\1\ While Endeavors is working with Federal 
and State entities to provide relief services at the Southwest border, 
and has an admirable mission and reputation, it is my understanding 
that Family Endeavors, Inc. has no previous history as an ICE 
contractor.
---------------------------------------------------------------------------
    \1\ ``ICE Signs $86.9 Million Contract with Endeavors for Short-
Term Migrant Care,'' Homeland Security Today, 21 March 2021, https://
www.hstoday.us/subject-matter-areas/border-security/ice-signs-86-9-
million-contract-with-endeavors-for-short-term-migrant-care/, accessed 
25 March 2021.
---------------------------------------------------------------------------
    As you know, as a general rule contracts must be awarded using full 
and open competition. However, according to the Federal Procurement 
Data System, the contract was not competed per the Federal Acquisition 
Regulation (FAR) 6.302-2 which can be applied when the agency's need 
for the supplies or services is of such an unusual and compelling 
urgency that the Government would be seriously injured unless the 
agency is permitted to limit the number of sources from which it 
solicits bids or proposals.\2\ Though the situation at the border might 
warrant the use of the FAR 6.302-2, I find it hard to believe that 
there were no other vendors that could have been at least considered 
for the award.
---------------------------------------------------------------------------
    \2\ Federal Procurement Data System accessed 24 March 2021. 
Contract Summary from USAspending.gov: https://www.usaspending.gov/
award/CONT_AWD_70CDCR21C000000- 01_7012_-NONE-_-NONE-.
---------------------------------------------------------------------------
    Although Endeavors has had contracts with several other Federal 
agencies, such as the Bureau of Indian Affairs and the Federal 
Acquisition Service, these contracts were competed and all for dollars 
amounts under $1 million, with one exception that was $1.4 million.
    Additionally, it appears that the Endeavors organization recently 
hired a former official of the Biden Campaign and the Administration's 
transition team, who also served in the Obama Administration.
    As a result, I have some specific questions I would like you to 
address:
    1. When did the government identify the need to expand detention 
        capacity to address the reported shortage of bed space for 
        family units?
    2. Did the Government post a request for information or a 
        competitive notice requesting additional family unit detention 
        beds?
    3. Did the Government receive an unsolicited proposal from 
        Endeavors?
    4. What criteria, if any, did ICE use to determine that Endeavors 
        was the only source that could provide these services?
    5. To what extent has ICE, the Customs and Border Protection, or 
        other Federal agencies contracted with Endeavors for similar 
        services in the past?
    6. Did a former ICE Executive and Biden campaign advisor for 
        homeland security, Andre Lorenzen-Strait, have any involvement 
        in securing the $86 million no bid contract for detention beds?
    7. Did Mr. Strait have any discussions with ICE officials or Biden 
        Administration officials pertaining to the $86 million 
        contract?
    I am gravely concerned given that ICE did not compete this contract 
award, that this is Endeavors' first contract with ICE, and that the 
contract award amount far exceeds any previous award amounts with this 
organization.
    I look forward to your response about this situation and would 
appreciate a written response within a week.
            Sincerely,
                                           Andrew S. Clyde,
                                                Member of Congress.
                                 ______
                                 
        Letter From Jason P. Houser to Honorable Andrew S. Clyde
                                      June 1, 2021.
The Honorable Andrew S. Clyde,
U.S. House of Representatives, Washington, DC 20515.
    Dear Representative Clyde: Thank you for your March 31, 2021 letter 
to U.S. Immigration and Customs Enforcement (ICE) relating to the 
decision to award a contract to Family Endeavors.
    ICE is dedicated to effectively enforcing U.S. immigration laws and 
border security measures. While we are seeing an increased number of 
migrants attempting to cross into the United States along the Southwest 
Border (SWB), the Department of Homeland Security continues to 
prioritize and target critical resources toward border areas in order 
to process them consistent with applicable legal authorities, including 
our immigration authorities and public health requirements. This influx 
of migrant encounters at the SWB has been generally rising since April 
2020 due to a variety of factors, including on-going violence, food 
insecurity, and poverty within the noncitizens' home countries.
    ICE is working expediently to implement additional processing and 
throughput capacity to address the heightened traffic flow of 
noncitizen families encountered along the SWB. To humanely and 
efficiently address the current situation along the SWB, ICE signed a 
short-term contract with the non-profit division of Family Endeavors to 
provide temporary shelter and processing services for families who have 
not been expelled from the United States and are therefore processed 
for immigration proceedings. ICE actively engaged in market research 
utilizing the techniques set forth in Federal Acquisition Regulation 
10.002(b)(2)(i) and (viii)--contacting knowledgeable individuals within 
government and industry and conducting interchange meetings with 
potential offerors. In the event the need for more emergency family 
staging centers increases, the Federal Government will continue to 
engage in market research as needed.
    Thank you again for your letter. Please find answers to your 
specific questions enclosed. Should you wish to discuss this matter 
further, please do not hesitate to contact the ICE Office of 
Congressional Relations at [].
            Sincerely,
                                           Jason P. Houser,
      Acting Assistant Director, Office of Congressional Relations.
Enclosure
                                 ______
                                 
 U.S. Immigration and Customs Enforcement's Response to Representative 
                Andrew S. Clyde's March 31, 2021 Letter
    Question 1. When did the Government identify the need to expand 
detention capacity to address the reported shortage of bed space for 
family units?
    Response: After January 2021, the Department of Homeland Security 
(DHS) observed an increase in irregular migrant flows to the Southwest 
Border (SWB), including greater numbers of family units. The projected 
encounters for Fiscal Year (FY) 2021 are expected to be the highest 
number observed in over 20 years. Currently, U.S. Customs and Border 
Protection is averaging encounters of more than 500 family units per 
day. Because of this unusual and compelling urgency, the government 
required the use of Emergency Family Staging Centers to meet the 
critical mission requirements of housing, feeding, transporting, and 
providing medical attention to thousands of asylum-seeking families 
encountered along the SWB. The Federal Government lacked the capacity 
to address the large influx of asylum seekers along the SWB and, as 
such, U.S. Immigration and Customs Enforcement (ICE) had to contract 
expeditiously to expand its existing bedspace for family units. The 
Federal Government is subject to regulatory and judicial constraints 
that mandate specific housing requirements and failure to comply could 
subject the Federal Government to substantial liability.
    Question 2. Did the Government post a request for information or a 
competitive notice requesting additional family unit detention beds?
    Response: ICE utilized an expedited contracting authority 
authorized in the Federal Acquisition Regulations (FAR) to respond to 
the immediate and unusual situation along the SWB. ICE actively engaged 
in market research utilizing the techniques set forth in FAR 
10.002(b)(2)(i) and (viii)--contacting knowledgeable individuals within 
government and industry and conducting interchange meetings with 
potential offerors. ICE will continue to conduct market research for 
any future emergency family reception needs. ICE did not issue a formal 
request for information or pursue a competitive award for this 
requirement based on the urgent need for these services.
    Question 3. Did the Government receive an unsolicited proposal from 
Endeavors?
    Response: Based on the exception of FAR 5.202 (a)(2) (``unusual and 
compelling urgency''), the ICE Office of Acquisition Management did not 
publicize this firm-fixed price contract prior to award. This action 
was required due to the urgency and time sensitivity of the situation, 
coupled with the complexity of the services required. ICE relied on 
knowledgeable government and industry personnel to identify the best 
sources available to deliver the expedited support needed for the 
current border crisis. ICE did not receive an unsolicited proposal in 
accordance with FAR 15.603.
    Question 4. What criteria, if any, did ICE use to determine that 
Endeavors was the only source that could provide these services?
    Response: The contract was awarded under the authority of FAR 
6.302-2, unusual and compelling urgency. The justification for the use 
of this authority was approved by the DHS Chief Procurement Officer.
    DHS has experienced increase in irregular migrant flows to the SWB 
and projected encounters for fiscal year 2021 are expected to be the 
highest number observed in over 20 years. Due to the unusual and 
compelling urgency, the Federal Government requires Emergency Family 
Residential Sites (EFRSs) to meet the critical mission requirements of 
housing, feeding, transporting, and providing medical attention to 
these thousands of asylum-seeking families along the SWB. Without 
EFRSs, the Federal Government would be forced to house family units and 
unaccompanied children in unsuitable and unsafe living conditions. The 
Federal Government is subject to regulatory and judicial constraints 
that mandate specific housing requirements and failure to comply will 
open the Federal Government to substantial liability. Family Endeavors, 
Inc. (Endeavors) is the only known source that is presently capable of 
meeting the Federal Government's urgent requirement to provide 1,239 
hotel beds and all-inclusive emergency family residential services to 
support the Federal Government's response. Other sources currently 
engaged in providing these or similar services for ICE are being 
further mobilized or converted for this specific use.
    Question 5. To what extent has ICE, the Customs and Border 
Protection, or other Federal agencies contracted with Endeavors for 
similar services in the past?
    Response: This is the first contract that ICE has awarded to 
Endeavors. ICE cannot speak to any contracts awarded by CBP or any 
other agencies.
    Question 6. Did a former ICE Executive and Biden campaign advisor 
for homeland security, Andre Lorenzen-Strait, have any involvement in 
securing the $86 million no bid contract for detention beds?
    Response: While Andrew Lorenzen-Strait is a former ICE employee, 
ICE's pursuit of a contract with Endeavors was based upon Endeavors' 
capabilities in combination with the urgent need of a service provider.
    Question 7. Did Mr. Strait have any discussion with ICE officials 
or Biden Administration officials pertaining to the $86 million 
contract?
    Response: As an employee of Endeavors, Mr. Lorenzen-Strait has 
participated in the performance of the contract ICE established with 
the non-profit organization.

    Mr. Clyde. In response to that letter, the Department says 
when I ask, when did the Government identify the need to expand 
detention capacity? The response was, after January 21, the 
Department of Homeland Security observed an increase in 
irregular migrant flows to the Southwest Border. It further 
goes on to say, the projected encounters for fiscal year 2021 
are expected to be the highest number observed in 20 years. 
This is from your own agency. Then in response to question 4, 
DHS has experienced an increase in irregular migrant flows to 
the Southwest Border and projected encounters for fiscal year 
2021 are again expected to be the highest number observed in 
over 20 years. Do we have a crisis at the border, Mr. 
Secretary?
    Secretary Mayorkas. I have previously articulated many, 
many times that as has occurred in the past, we have a 
challenge----
    Mr. Clyde. A yes or no is sufficient, sir.
    Secretary Mayorkas. We have a challenge at the border and 
we have a strategy.
    Mr. Clyde. Do we have a crisis at the border, sir?
    Secretary Mayorkas. I do not agree with the use of that 
terminology as I have articulated before. We have a strategy. 
We are executing----
    Mr. Clyde. Well, I think we do, Mr. Secretary.
    Secretary Mayorkas [continuing]. On our strategy. I have 
confidence in our strategy.
    Mr. Clyde. Now, along with this letter, I asked about a 
$86.9 million noncompete contract that was given to Family 
Endeavors by Immigrations and Customs Enforcement. Do you agree 
that the Federal Government should be the best possible steward 
of taxpayers' money?
    Secretary Mayorkas. Absolutely.
    Mr. Clyde. OK. Well, this $86.9 million noncompete contract 
requested 1,239 beds beginning March 17 through the end of 
September 2021, which was 197 days. So, if you take 1,239 times 
197, that is 244,000 beds for $86.9 million. That is $356 a day 
per bed. Does that sound excessive for a hotel?
    Secretary Mayorkas. I cannot judge from my position, 
Congressman. I think you are well aware of the fact that it 
would be impermissible for the Secretary of Homeland Security 
to involve him or herself in the contracting process.
    Mr. Clyde. Well,----
    Secretary Mayorkas. I know that that--if I may finish. I 
know that that contract is actually----
    Mr. Clyde. Let me reclaim my time. OK. I think this is 
excessive. That is way above the Government rate and it does 
not sound like a good use of Government resources to me.
    Secretary Mayorkas. I know that that contract is under 
review, Congressman.
    Mr. Clyde. OK, well, according to this letter, it says, ICE 
actively engaged in market research utilizing techniques set 
forth in the FAR contacting knowledgeable individuals within 
the Government and industry and conducting interchange meetings 
with potential offerors. Would you be willing--would you agree 
today to provide us a copy of your market research and the list 
of potential offerors with which DHS met, including the times 
and dates of those meetings?
    Secretary Mayorkas. I know that that contract is under 
review and I will relay your request for information to my 
team, Congressman.
    Mr. Clyde. OK.
    Secretary Mayorkas. We pride ourselves on responsiveness.
    Mr. Clyde. OK. You know, this letter states the reason for 
this noncompete is unusual and compelling urgency. They use an 
expedited contracting authority to respond to the immediate and 
unusual situation along the Southwest Border. You know, that 
says crisis to me. It also says, this is the first contract 
that ICE has awarded to Endeavors. The very first contract, yet 
it says, Family Endeavors is the only known source that is 
presently capable of meeting the Federal Government's urgent 
requirement to provide 1,239 hotel beds in an all-inclusive 
emergency family residential services to support the Federal 
Government's response. How in the world does ICE know that they 
are the only known source when they have never awarded a 
contract to Family Endeavors before?
    Secretary Mayorkas. Two comments, if I may, Congressman. 
First, I must repeat that that contract is under review. The 
team----
    Mr. Clyde. OK, all right. Thank you. I have got another 
question for you on a different subject. Is the Federal airline 
mask mandate a Federal law?
    Secretary Mayorkas. It is a Federal mandate.
    Mr. Clyde. So, it is not a law.
    Secretary Mayorkas. I actually don't know the answer to 
that question, Congressman. I know it is a mandate and we have 
the legal authority----
    Mr. Clyde. OK.
    Secretary Mayorkas [continuing]. To issue--if I may answer, 
Congressman. We have the legal authority to issue mandates.
    Mr. Clyde. OK, all right. That is fine. So, Dr. Fauci, 
every----
    Chairman Thompson. The gentleman's time has expired.
    Mr. Clyde. I yield back.
    Chairman Thompson. The gentleman's time has expired. The 
Chair recognizes the gentlelady from New York, Miss Rice, for 5 
minutes.
    Miss Rice. Thank you, Mr. Chairman. Secretary Mayorkas, I 
was pleased this week to see the White House release the first-
ever National Strategy for Domestic Terrorism and that the 
strategy places a particular emphasis on addressing the racism, 
bigotry, and religious hatred that has fueled a great deal of 
domestic violent extremism. Even before the pandemic, 
communities in my district and across New York were reeling 
from a spate of anti-Semitic attacks. Things have only worsened 
as extremists and conspiracy theorists spin lies about Jews 
spreading the virus or controlling our elections.
    Just last month, a young man from my district, Joseph 
Borgen, was the victim of a anti-Semitic assault on the streets 
of New York, which was videotaped and went viral in which he 
was punched, kicked, pepper sprayed, and assailed with ethnic 
slurs. Tragically, the Orthodox community is an easy target for 
violence because they wear such visible markers of their faith. 
How will President Biden's National strategy protect the 
Orthodox community and other targets of violence motivated by 
religious hatred?
    Secretary Mayorkas. Congresswoman, I very much appreciate 
your question. I should answer it first on a personal note. My 
maternal grandfather lost 8 brothers and a sister and his 
parents to anti-Semitism executed by the Nazis in World War II 
Europe. That issue has deep and profound resonance for me. 
Under the President's leadership, we have invested considerable 
resources in educating faith-based communities, including the 
Orthodox community, with respect to the rise of ideologies of 
hate and their connectivity to violence. We have resourced a 
grant program in that regard, and we have----
    Miss Rice. I wanted to talk about that if I could, Mr. 
Secretary. The Nonprofit and Security Grant Program, which 
provides funding for physical security, enhancements for houses 
of worship, as you know, is one of the most important resources 
available to vulnerable communities and nonprofits. While I am 
grateful that that program has delivered millions of dollars to 
New York and Long Island. My colleagues and I have heard from 
Jewish and interfaith organizations that present funding levels 
are insufficient to meet current needs. So, Representative Ted 
Lieu of California and I recently wrote to the House 
Appropriations Committee, Homeland Security Subcommittee, to 
request $400 million of funding for this program for fiscal 
year 2022. So, I am hoping that that is going to be responded 
to.
    I have a short amount of time and I just want to move on to 
the issue of border waiver authority. I was glad to see that 
President Biden's budget requests no funding for border wall 
construction, and instead focuses on investing in effective and 
modern methods of securing the border and addressing the root 
causes of migration. This stands in stark contrast to the 
previous President whose budget request reflected a very 
narrow-minded view of immigration and redirected billions of 
dollars to the misguided border wall at the expense of public 
safety and the mission of DHS. While I am glad that our country 
is moving in the right direction, I do believe we need to learn 
from our past and correct loopholes in our law where we find 
them.
    As you now, two-thirds of land on the Southern Border is 
owned by private citizens or the border States. Much of it is 
home to sensitive wildlife and wild lands. So, in order to 
construct his wall across this land, President Trump relied on 
both eminent domain, in which the Government seizes land from 
citizens, and DHS's waiver authority, which allows the 
Secretary to waive environmental preservation laws in support 
of border wall construction. The former administration's abuse 
of the waiver authority led to destroying habitats for at-risk 
species, it undermined the public's trust in Government, and 
was particularly harmful to Tribal nations whose sacred lands 
cross the Southern Border.
    So, last Congress this committee passed my bill the 
Rescinding DHS' Waiver Authority for Border Wall Act, which 
would have repealed the Department of Homeland Security's 
ability to waive any and every law with the stroke of a pen. Do 
you agree that you and your successors should not have 
unchecked authority to waive critical public health and safety 
laws including the Endangered Species Act, the National 
Environmental Policy Act, the Safe Drinking Water Act, and the 
Clean Water Act for wall construction? How is the Biden 
administration going to work to rebuild these habitats and 
rebuild trust in the U.S. Government?
    Secretary Mayorkas. We are very committed to environmental 
protection. Any waiver authority that we would exercise would 
only be compelled by circumstances that include an evaluation 
of environmental impacts. I look forward to working with you on 
that legislation, Congresswoman.
    Miss Rice. Thank you very much, Mr. Secretary. I yield 
back, Mr. Chairman.
    Chairman Thompson. Thank you. The gentlelady yields back. 
The Chair recognizes the gentleman from Texas, Mr. McCaul, for 
5 minutes.
    Mr. McCaul. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary. Since January 2021, there have been over 700,000 
illegal crossings across the Southwest Border, a 21-year high 
that you, in fact, predicted. This month, the Biden 
administration officially rescinded the Migrant Protection 
Protocols, and I will want to ask you about that.
    But first, my home State of Texas passed a $1 billion in 
taxpayer dollars because the Federal Government is failing to 
step up to the plate. Texas has had to take this crisis in its 
own hands. The Governor talked about spending now $250 million 
to begin border wall construction and is now taking donations. 
Are you, sir, prepared to--it is a Federal responsibility, the 
border, not a State. We all understand that. Are you prepared 
to reimburse Texans for their border security expenses?
    Secretary Mayorkas. Congressman McCaul, it is good to see 
you again. It has been a while----
    Mr. McCaul. You too.
    Secretary Mayorkas [continuing]. Since we worked together 
when you were Chairman of the committee and I served as the 
deputy secretary. I believe it is, indeed, a Federal 
responsibility. We are fulfilling that responsibility. We are 
executing our strategy and we will continue to do so.
    Mr. McCaul. Well, it is a Federal responsibility. Yes, at 
some point the Federal Government needs to pick up the cost and 
the tab on this. With respect to Migrant Protection Protocols, 
you know, I have been a very--I have been very harsh in my 
criticism of the recission of Remain in Mexico and the asylum 
cooperation agreements with Central America. I think that was a 
foreign policy masterpiece by the Trump administration and a 
foreign policy blunder by the Biden administration, which has 
created the self-inflicted wound which opened up the border to 
the traffickers. The traffickers are the ones winning here, not 
the children, for sure. Now we are seeing--we will probably see 
1 million come into this country, along with all the drugs, 
including fentanyls, which are now killing people not only in 
the northeast, but in my home State of Texas. I have seen many 
deaths take place and the apprehensions are going up.
    What is your plan to deal with this migrant surge? I know 
you went down to Mexico, but please tell me you are negotiating 
with Central America and Mexico. You could call it whatever you 
want, but some agreement with them to stop this crisis that we 
are now in.
    Secretary Mayorkas. We have a multi-tiered strategy, 
Congressman, as I think you well know. One, we are addressing 
the root causes of irregular migration that have persisted for 
quite a number of years, peaks at several times. You and I 
worked together to address peaks over the many years, No. 1. 
No. 2, we are building legal pathways, alternatives to 
irregular migration so people don't have to take the perilous 
journey. We are rebuilding and expanding the Central American 
Minors Program. Building processing centers in the countries of 
origin. Third, we are, indeed, addressing the tools that we 
have to bring consequences to bear when individuals seek to 
avoid detection.
    Mr. McCaul. If I can reclaim my time.
    Secretary Mayorkas. Addressing the home organizations.
    Mr. McCaul. I know it is called the [inaudible] in 
Guatemala. I talk to the Ambassador a lot and that is great, 
these processing centers. But until you change these policies 
that were rescinded, the traffickers are not going to choose 
those centers. They are going to chose to make 15 million a day 
and .5 a billion month by taking these children on this 
dangerous journey.
    I would ask that you, as I know you are, work with the 
State Department. We have the Development Finance Corporation. 
When I talk to the Guatemalan ambassador, he says I don't 
really want aid, I want trade. He wants private investment in 
Central America. We created statutorily into law the 
Development Finance Corporation and there are other avenues as 
well to work with the private sector to get private investment 
in Central America because it is one area where you and I agree 
on this one is that until we fix that, we are going to continue 
to have a migration problem. So, I hope you can work----
    Chairman Thompson. The gentleman's time from Texas has 
expired. The Chair recognizes the gentleman from Texas, Mr. 
Green, for 5 minutes. The Chair recognizes Mrs. Demings from 
Florida for 5 minutes.
    Mrs. Demings. Thank you so much, Mr. Chairman. Secretary 
Mayorkas, thank you so much for being with us. It is great to 
see you and to have you in your position. I am very pleased to 
see the administration's announcement of the National Strategy 
for Countering Domestic Terrorism this week. As you know, we 
all must, especially on this committee, be truthful about the 
threats we face. It is clear that domestic terrorism is an 
urgent threat the United States faces today.
    While we in Congress survived the attack on our Capitol, 
everyone, as you know, Mr. Secretary, did not. We should do 
everything in our power to thoroughly investigate it and ensure 
that while we are here doing the people's business, that we, 
our staff members, and the people who work in this building, 
are safe. How can we forget the law enforcement officers who 
were beaten down that day and gave all they had to, as they 
say, hold the line.
    I appreciate the work the administration is doing to help 
FEMA assist State and local governments combat domestic 
terrorist threats in their community. This year, the notice of 
funding opportunity for fiscal year 2021 for FEMA State 
Homeland Security Grant Program and Urban Security Grant 
Initiative included domestic terrorism as a new National 
priority. Secretary Mayorkas, can you explain the significance 
of this change in the Homeland Security grant programs and how 
you think its impact will be?
    Secretary Mayorkas. Congresswoman, thank you so much for 
your focus on this critical area. As I have mentioned, it is 
the greatest terrorism-related threat that we face on the 
homeland. We require grant recipients under the program that 
you identified to dedicate at least $77 million to this effort. 
We believe that the greatest utility, the most effective 
measure is to build partnerships to equip State, local, Tribal, 
territorial law enforcement agencies to understand, to receive, 
to understand, and actionalize the information they receive 
with respect to threat streams and to build programs of 
partnership in the communities in which they reside to protect 
us, to be able to identify individuals who are exhibiting signs 
of radicalization and intention to commit violence, and to 
prevent it before it occurs.
    Mrs. Demings. Mr. Secretary, thank you so much for that. 
But by the same token, as the Chair of the Subcommittee on 
Emergency Preparedness, Response, and Recovery, I am greatly 
disappointed to see that the Department proposed a decrease of 
$15.3 million to the Urban Area Security Initiative Grant 
Program. One that I as a local official, local police chief, 
certainly depended upon. The Department's budget justification 
states that the proposed reduction will have a minimal impact 
on accomplishing the goals of UASI. Mr. Secretary, how did the 
Department engage jurisdictions, local law enforcement, 
organizations, and emergency managers to determine that a $15.3 
million cut would have a ``minimal impact on accomplishing the 
goals of UASI''?
    Secretary Mayorkas. A three-part answer, if I may,----
    Mrs. Demings. Yes.
    Secretary Mayorkas [continuing]. Congresswoman. Certainly, 
I recognize your distinguished service as a chief of police 
before becoming a Member of Congress. No. 1, I immediately 
halted when I came to office a significant diversion of UASI 
funds that was planned by the prior administration. No. 2, we 
have shifted a focus from developing capacity, to sustainment, 
to now being able to address emerging threats for precisely the 
reason that your first question underscores. Third, we are 
working very closely with State and local law enforcement to 
analyze the grant formula that underlies the UASI program and 
make sure that it addresses the needs most effectively of the 
entire first responder community.
    Mrs. Demings. Mr. Secretary, I am out of time. Thank you so 
much. Mr. Chairman, I yield back.
    Ms. Barragan [presiding]. Thank you. The gentlewoman yields 
back. This is Congress Member Barragan who will take over 
chairing as the Chairman has gone to the floor to vote. We next 
have up Representative Garbarino. You are recognized for 5 
minutes.
    Mr. Garbarino. Thank you very much. Thank you very much, 
Mr. Secretary, for being here. I have a question regarding 
President Biden's recent cybersecurity Executive Order. It 
gives CISA a lot of--gives them a lot of responsibilities and 
has several requirements for them. While we are supportive of 
these steps, the budget does not request additional funding for 
CISA to carry this out. Is there a reason CISA is not getting 
additional funding for all these items that are in the 
Executive Order?
    Secretary Mayorkas. Congressman Garbarino, we appreciate 
the additional funding that Congress already has provided. We 
do seek additional funding for CISA. We intend to devote all of 
our efforts to execute on the President's leadership in this 
area.
    Mr. Garbarino. But I mean, is there--was there a reason 
that the Executive Order and the budget requests were not 
coordinated more closely?
    Secretary Mayorkas. We do think that the strategy is 
coordinated very effectively, Congressman. Our team would be 
very pleased to meet with you and your staff to ensure that you 
understand exactly the coordination that we have undertaken.
    Mr. Garbarino. So, you believe CISA has the resources to 
meet the requirements under the Executive Order?
    Secretary Mayorkas. We have the resources. We have 
requested the resources, and we will continue to request the 
resources to expand on the mission as the threats so compel.
    Mr. Garbarino. I appreciate that and I agree with the 
Ranking Member that CISA needs to be a much highly--much more 
funded organization and needs to be really the centerpiece of 
the Government's cybersecurity. Which is why I am wondering 
where is the administration--I know they are currently 
reviewing and providing comments on some cybersecurity bills 
that would give the Department of Energy enhanced cybersecurity 
authorities relating to the energy and pipeline sectors. It is 
not just the pipeline and energy sectors that is under attack 
from these cyber attacks. So, wouldn't it make more sense for 
CISA to have the responsibility across the board to be the 
quarterback and not give DOE enhanced cybersecurity authorities 
over these pipelines because, you know, these attacks are not 
sector-specific?
    Secretary Mayorkas. So, we have been taking a look at that 
question. I think the question raises very complex issues that 
we also would look forward to discussing. I think what we have 
done in the pipeline arena in the pipeline sector in response 
to the Colonial Pipeline ransomware attack speaks of the 
complexity of the issues. TSA as assuredly you know, regulates 
the security of the gas pipelines. In coordination with CISA, 
issued a new security directive several weeks ago, which 
required--imposed certain obligations on gas pipeline operators 
such as identifying the cybersecurity coordinator who would be 
on call 24/7. Such as providing information to CISA upon an 
attack. I think this is a very complex area with respect to the 
role of CISA vis-a-vis regulatory agencies across the different 
sectors. I would look forward to discussing that with you, 
Congressman Garbarino.
    Mr. Garbarino. Yes, I think we have to--we should 
definitely--we don't have enough time here today to go over it, 
but we should definitely work together on that. I want to 
change angles here real quick. I was down at the border 
recently. The Biden administration has reduced the enforcement 
of Title 42 for UACs, and Title 42 for other adults, we spoke 
to Border Patrol. They said having that, the border police 
having that Title 42 authority right now is extremely helpful 
in stopping their officers, their buildings from being overrun. 
If the administration fully revokes Title 42, even though the 
pandemic is still--we still have a global pandemic and the 
COVID numbers in Mexico are very high, is there enough funding? 
Is there enough funding for Border Patrol to make sure that 
they can deal with the influx of migrants coming across? I 
mean, they are very concerned about what is going to happen if 
Title 42 is fully revoked.
    Secretary Mayorkas. Congressman, it is a very important--
this is a very important point. Title 42 is a public health 
authority. It is not an immigration authority. The ability to 
employ the Title 42 authority is dependent upon the public 
health situation. It is driven by public health data, not a 
matter of immigration policy, and that is dictated by law.
    Mr. Garbarino. But the Border Patrol agents--but the Border 
Patrol agents still have to deal with it. I mean, so, I mean, 
they are going to need the resources.
    Secretary Mayorkas. That is correct, and we have a plan as 
we had before the pandemic, to address irregular migration in 
between the ports of entry absent a public health imperative.
    Ms. Barragan. The gentleman's time has expired. Thank you 
to the gentleman for your questions. I will now recognize 
myself for 5 minutes of questions.
    Mr. Secretary, first, thank you for being with us today. I 
will just remind my colleagues on the other side who have been 
asking for this country to open up because there is no longer a 
health crisis according to them, that we will continue to 
encourage the administration to look at Title 42 now that the 
country is reopening again.
    I want to thank you, Mr. Secretary, for all the work you 
have done at the border and for allowing me to visit the border 
with you to see the remarkable progress we have seen. Having 
children out of Border Patrol custody as quickly as possible 
under your work and the work of this administration has been 
remarkable to see the hours go down significantly, less than 72 
hours in many cases, 24 hours. So, I want to thank you for 
that.
    We also heard from colleagues across the aisle about help 
on the border. I am sure that you are aware of this, but happy 
to report to my colleagues that help is on the way. I had the 
honor of going down to FLETC in Charleston to provide remarks 
at a graduation ceremony there for the second class of the 
Border Patrol processing coordinator. Which is a position that 
was created to provide that additional assistance for Border 
Patrol agents so they had that extra help to process migrants 
to make sure that we are getting them better care for children 
and for families and to allow more agents to remain in the 
field. So, I wanted to thank you, Mr. Secretary, for that.
    Mr. Secretary, as you know, the Department of Homeland 
Security is the largest Federal law enforcement agency in the 
country with more than 60,000 law enforcement officers among 
its work force. Additionally, tens of thousands of State, 
local, and Tribal law enforcement officers receive training 
from one of DHS's components, the Federal Law Enforcement 
Training Centers. As I mentioned, I was fortunate to visit the 
Federal Law Enforcement Training Center in Charleston earlier 
this week. This visit reinforced my belief that DHS has the 
opportunity to be a leader in law enforcement training by 
prioritizing de-escalation tactics and oversight mechanisms in 
its standards regarding use of force and ensuring compliance 
throughout the Department. Secretary Mayorkas, what efforts is 
DHS making to ensure that the Department's law enforcement 
components are prioritizing de-escalation and utilizing proper 
use of force tactics?
    Secretary Mayorkas. Congresswoman, thank you for your 
preliminary remarks. We are every day looking at the training 
that we provide to our law enforcement personnel and ensuring 
that it comports with best practices as they emerge. We are 
very focused on ensuring that FLETC implements those best 
practices in its training protocols, not only because FLETC 
imparts expertise, knowledge, and education to Federal law 
enforcement, but also has an important role with respect to 
State and local law enforcement. I would be pleased to provide 
the particulars to you.
    Ms. Barragan. Well, thank you. You kind-of read my next 
question was, you know, what are FLETC and the Department doing 
to convey these best practices to State, local, and Tribal law 
enforcement agencies?
    Secretary Mayorkas. We work in close partnership with 
State, local, Tribal, territorial law enforcement. I was just 
in California last week and met with chiefs of police, 
sheriffs, highway patrol, and spoke about these very issues. We 
take a very collaborative and communicative approach with our 
partners in this regard.
    Ms. Barragan. Great. Well, thank you for that. I was 
impressed to see the efficiency of having this law enforcement 
training center there and so many agencies, I believe over 100, 
using it and collaborating and working together. I am also 
pleased that the Chairman of our committee has taken action on 
this issue by developing language in the DHS reform bill that 
enhances and expands de-escalation training at the Department 
and prohibits the use of chokeholds, among other reforms. Mr. 
Secretary, will you commit to working with the committee on 
enacting and implementing these reforms?
    Secretary Mayorkas. I look forward to doing so, 
Congresswoman.
    Ms. Barragan. Well, fantastic. Thank you again, Mr. 
Secretary. I see that my colleague, Mr. Torres of New York has 
joined us. I will now recognize the gentleman from New York, 
Mr. Torres, for 5 minutes.
    Mr. Torres. Good morning, Mr. Secretary. My first question 
is about the 287(g) program. As you know, the program grew by 
425 percent during the Trump administration. It has led to the 
weaponization of local law enforcement against immigrants and 
their families. It has done incalculable damage to the public 
trust that lies at the foundation of public safety. Despite 
promising to end the program, which has been abused by the 
likes of Sheriff Arpaio, your Department has so far kept it 
intact. So, I am going to ask the same question that I asked 
several months ago. When do you plan to end the program as the 
President promised?
    Secretary Mayorkas. Well, Congressman, let me share with 
you the approach that we are taking. No. 1, I should say as a 
predicate, that change takes time. No. 2, it is clear that we 
need to strengthen and improve our relationship with State and 
local law enforcement to make sure that it is productive in the 
service of our mission and in adherence with, and this is 
critical, our principles and values. I am working with 
Immigrations and Customs Enforcement on new enforcement 
guidelines. That, I think, is the first step necessary as we 
reform our immigration enforcement system.
    No. 2, an additional point, and I think you I am sure are 
aware of this, if in fact, we see the pernicious abuse of a 
287(g) agreement, the mistreatment of individuals in 
immigration custody, we will act accordingly. Indeed, I have 
done so. I specifically and respectfully draw your attention to 
our actions in the State of Massachusetts in keeping with the 
findings of the attorney general in that State.
    Mr. Torres. You are conducting a review. What is the time 
line for the review?
    Secretary Mayorkas. We will move as swiftly as we can. We 
will----
    Mr. Torres. Do you have something more concrete than as 
swiftly as we can?
    Secretary Mayorkas. I do not, Congressman. I do not have a 
more concrete time line for you.
    Mr. Torres. A question about TPS. As you know, Mr. 
Secretary, instability in Central America has driven a mass 
migration to the U.S.-Mexico border. Central America has been 
hit hard by several hurricanes. According to Oxfam, two 
hurricanes in particular had an impact on 11 million people 
causing the evacuation of 800,000. Since environmental disaster 
is one of the criteria for Temporary Protected Status, are you 
open to designating Guatemala and redesignating El Salvador, 
Honduras, and Nicaragua for Temporary Protected Status?
    Secretary Mayorkas. We are looking at the country 
conditions in the countries that you identified, Congressman 
Torres. We are studying those country conditions very carefully 
and we fully recognize that climate disasters are considered a 
factor in our review.
    Mr. Torres. Is there a time line for that review?
    Secretary Mayorkas. We are also moving as swiftly as 
possible, Congressman.
    Mr. Torres. OK. As you know, Mr. Secretary, there has been 
a surge in cyber attacks. The law department in America's 
largest city was struck by a cyber attack. So was the 
Metropolitan Transit Authority, the largest public transit 
system in the United States. Are you aware of each of these 
attacks?
    Secretary Mayorkas. I am.
    Mr. Torres. Since local and State governments and public 
transit systems have no reporting obligation to DHS when it 
comes to cyber incidents, how did you find out about these 
attacks? When did you find out? Did you find out immediately?
    Secretary Mayorkas. Congressman, we pride ourselves in our 
partnerships with both public agencies across the Nation as 
well as with the private sector. We are looking at reporting 
obligations. The current architecture, they are voluntary. We 
are determining the pros and cons of making reporting 
obligations mandatory. I should say, obliging them. There are 
both----
    Mr. Torres. Just in the interest of time quickly, Mr. 
Secretary, I just want to--because my time is running out. Does 
DHS have the authority to require reporting of cyber incidents 
as a condition for receiving DHS grants?
    Secretary Mayorkas. I would have to take a look at that 
precise question as you tie it to grant funding, Congressman.
    Mr. Torres. Stipulate for a moment that you did have the 
authority, would you be open to extending reporting obligations 
to State and local governments and public transit systems that 
become the target of cyber attacks?
    Secretary Mayorkas. I would like to analyze that issue 
better. I am not equipped to answer such a significant question 
extemporaneously.
    Mr. Torres. I see my time is about to expire. So, I thank 
you for your public service.
    Secretary Mayorkas. Thank you.
    Chairman Thompson. Thank you very much. The gentleman's 
time has expired. I thank the gentlelady from California for 
stepping in while I went and voted. Thank you much. The Chair 
recognizes the gentlelady from Florida for 5 minutes.
    Mrs. Cammack. Well, thank you, Mr. Chairman. I appreciate 
it. Good morning Secretary Mayorkas.
    Secretary Mayorkas. Congresswoman, it is--forgive me. I 
apologize for interrupting. It is a little difficult to hear 
you.
    Mrs. Cammack. Can you hear me better now?
    Chairman Thompson. I think you need to turn your volume up.
    Mrs. Cammack. Can you hear me better now?
    Secretary Mayorkas. Yes. Yes. I will focus even more 
intensely on----
    Mrs. Cammack. OK. All right. Well, I will jump right in on 
the questions and I will speak as loud as I possibly can. So, 
Secretary Mayorkas, you would, I am assuming, certainly agree 
that border security is under the purview of Homeland Security.
    Secretary Mayorkas. Yes.
    Mrs. Cammack. Excellent. So, can you tell me what the job 
description of the border czar is?
    Secretary Mayorkas. Do you mean the Secretary of Homeland 
Security? My----
    Mrs. Cammack. No, no.
    Secretary Mayorkas [continuing]. Responsibilities----
    Mrs. Cammack. I am referring to the appointment from 
President Biden to Vice President Harris as the border czar.
    Secretary Mayorkas. Congresswoman, you are speaking with 
the individual who has responsibility for border security. As 
the Secretary of Homeland----
    Mrs. Cammack. So, you----
    Secretary Mayorkas [continuing]. Security.
    Mrs. Cammack. So, there is----
    Secretary Mayorkas. The Vice President's----
    Mrs. Cammack [continuing]. Then with the administration. 
So, it is our understanding that Vice President Harris has been 
appointed by President Biden as a border czar.
    Secretary Mayorkas. That is a----
    Mrs. Cammack. You said you disagree.
    Secretary Mayorkas. That is a misunderstanding. The Vice 
President, her focus is on addressing the root causes of 
irregular migration working with the countries of Guatemala, El 
Salvador, and Honduras in the Northern Triangle to understand 
why people are leaving their home countries, their homes where 
they speak the language----
    Mrs. Cammack. OK. Secretary Mayorkas----
    Secretary Mayorkas [continuing]. Where they built their 
lives.
    Mrs. Cammack [continuing]. This is Homeland Security of the 
United States. I understand that we--I understand where you are 
going with this, but I am going to reclaim my time. So, I am 
just going to redirect. How many agents do we have, Border 
Patrol agents do we have on the Southwest Border?
    Secretary Mayorkas. I will provide you with a precise 
number, Congresswoman. I will provide that to you later today.
    Mrs. Cammack. As Secretary of Homeland Security, we have a 
border crisis, and you can't tell me how many agents we have, 
roughly, approximately on the Southwest Border?
    Secretary Mayorkas. Congresswoman, I think you are aware of 
the fact the tens of thousands of Border Patrol agents that we 
have. You are well aware of the responsibilities that they 
execute and the talent and expertise they bring to bear to the 
border.
    Mrs. Cammack. I am. There is roughly 20,000 for both the 
north and southern borders on the United States. Can you tell 
me how many sectors we have in Texas?
    Secretary Mayorkas. I cannot provide to you the precise 
number----
    Mrs. Cammack. There are 9 sectors.
    Secretary Mayorkas [continuing]. Of sectors that we have.
    Mrs. Cammack. Secretary Mayorkas, there are 9 sectors. I 
will answer that for you. In the President's budget, they 
allocated $9.1 million in coordinators, which will be the 
equivalent of 125 agents, which are not full-fledged agents. 
They are transporters for migrants and paper intake folks. But 
when we have a record number of retirees out of the Border 
Patrol agents with some of the lowest morale in the country, 
and 40 percent of the agents in just the RGB sector alone, one 
of the highest activity sectors they are seeing the highest 
numbers of apprehensions and got-aways along the Southwest 
Border, 40 percent of the agents are already doing 
humanitarian. Do you think 125 agents or coordinators, 
additional coordinators is sufficient----
    Secretary Mayorkas. I can----
    Mrs. Cammack [continuing]. Given the numbers?
    Secretary Mayorkas. Congresswoman, if you understand the 
work force and its----
    Mrs. Cammack. Mr. Secretary----
    Secretary Mayorkas [continuing]. And its needs,----
    Mrs. Cammack. Mr. Secretary, I do not mean to be rude, but 
just a yes or a no will suffice.
    Secretary Mayorkas. No, may I please have the opportunity 
to answer your question? Because this is so vitally important 
not only for the execution of our responsibilities, but to the 
morale of the Border Patrol agents. What we try to avoid is 
having Border Patrol agents execute mission support 
responsibilities and, therefore, we are recruiting and hiring 
individuals with different job portfolios so that those with 
expertise can actually execute the responsibilities within the 
parameters of their expertise.
    Mrs. Cammack. Secretary Mayorkas, I am not sure what 
expertise is required to drive a bus or van and to fill out 
paperwork. But I do think that our full-fledged sworn officers 
and agents need more support from the administration 
absolutely.
    I am going to redirect the remaining time that I have. As 
you know, FEMA's Emergency Food and Shelter Program provides 
Federal funds. I have recently been on an airplane in McAllen, 
Texas in which migrants were being flown from on that plane 
that I was on and these were migrants that we had picked up the 
night before, it is my understanding that FEMA is supporting 
the travel costs of these migrants. Is that true?
    Secretary Mayorkas. Congresswoman, we have brought 
resources from different agencies to address the security of 
the border. It reflects our commitment to achieving that 
security. It is part of our strategy and we are executing on 
that strategy. We have dedicated FEMA----
    Mrs. Cammack. I will take that as a yes.
    Secretary Mayorkas [continuing]. Personnel to the 
Department of Health and Human Services as well. Personnel from 
U.S. Citizenship and Immigration Services to address the needs 
of unaccompanied children. It is what you and I spoke of at the 
last hearing. I think the progress that--the extraordinary 
progress that we made with respect to that mission set speaks 
precisely to what I communicated to you in March, which is, we 
have a strategy.
    Mrs. Cammack. Mr. Secretary, I understand.
    Secretary Mayorkas. We are executing our strategy.
    Mrs. Cammack. I understand. My time has expired. I want to 
be respectful of the Chairman. So, I will take your answer as a 
yes that FEMA has been supporting the travel costs of migrants. 
I will also submit for the record that once again, the 
questions that I submitted to the record to you, Secretary 
Mayorkas, in March have gone unanswered. I will again repeat my 
request to have your office respond in writing to those 
requests. With that, Mr. Chairman, I yield back.
    Chairman Thompson. The gentlelady yields back. Thank you 
very much.
    Mrs. Cammack. Thank you.
    Chairman Thompson. Mr. Mayorkas, I am submitting for the 
record, a letter from Chairwoman Maxine Waters asking for 
certain information from your office. I ask unanimous consent 
for it to be included in the record without objection.
    [The information follows:]
            Letter Submitted by Chairman Bennie G. Thompson
                                     June 16, 2021.
The Honorable Bennie G. Thompson,
Chairman, Committee on Homeland Security, U.S. House of 
        Representatives, Washington, DC 20515.
    Chair Thompson: I am writing to you regarding a false allegation 
being made about me which states that I requested and received 
protection from the United States Capitol Police, the United States 
Secret Service, and the Federal Air Marshal Service during an April 17, 
2021 flight from Washington Dulles International Airport to 
Minneapolis-St. Paul International Airport. This false allegation is 
being circulated by several media outlets and is claiming that Members 
of Congress are abusing the Federal Air Marshal Service due to changes 
made after January 6, 2021.
    To be clear, I did not request any protection from any of the 
agencies I have outlined. I have never requested Federal Air Marshal 
protection, Secret Service, or any armed guards from anywhere and I 
certainly never knew that Members of Congress have called or requested 
Air Marshal protection. It is my understanding that the Federal Air 
Marshal Service is a service overseen by the Transportation Security 
Administration and the Department of Homeland Security.
    Due to the nature of the false claim against myself and other 
Members of Congress regarding the Federal Air Marshal Service, I am 
doing my own thorough investigation. While I have received definitive 
statements from the United States Capitol Police and the United States 
Secret Service confirming that I did not request or receive protection 
from them, I am now requesting a definitive statement from the Federal 
Air Marshal Service clarifying that I did not request Air Marshals to 
accompany me on my April 17 flight, or any of my flights. Due to these 
false accusations, I have received threats against my life and I feel I 
must defend myself by having the agencies I am accused of using tell 
the truth about the allegations.
    Through my inquiries into this matter, it was determined by the 
U.S. Capitol Police that my itinerary for the April 17 flight was 
leaked by an individual with the Metropolitan Washington Airports 
Authority to right-wing media outlets who began pushing a false 
narrative about Members of Congress and their alleged abuse of the 
Federal Air Marshal Service. The identification of this person was not 
given, nor is it clear if any actions have been taken against them for 
the leak of my itinerary. I would like to know if there is any law that 
prohibits individuals from leaking the flight information of any 
passenger, be it an elected official or otherwise.
    I have also discovered that there are various groups that represent 
Federal Air Marshals. Two that I am aware of are the Air Marshal 
Association and the Air Marshal National Council. The Air Marshal 
National Council broke off from the Air Marshal Association and handles 
their information very differently. The Air Marshal National Council 
President David Londo and Executive Director Sonya Hightower LoBasco 
have made outrageous statements about my travel. Hightower LoBasco, as 
cited in a May 14 Fox News Article, has said that I was already 
accompanied by two U.S. Capitol Police Officers and two U.S. Secret 
Service officers when I requested two air marshals and two more 
marshals on touchdown to escort me. Londo has said ``Placing FAMs on 
aircraft simply because a Member of Congress requests it is an 
egregious misuse of government resources. The FAMs are now taking 
agents off of regularly scheduled `high risk' flights to put them on 
flights with Members of Congress, that in most cases have their own 
armed Federal security details onboard already. It has become akin to a 
type of extremely expensive concierge service for congressional 
members.'' Following these outrageous claims, the Air Marshal 
Association has referred me to information that describes the Airport 
National Council and I will refer you to that.
    Over the last couple of months, I have discovered that Members of 
Congress do not know or understand the relationship between all the 
agencies tasked with working with Congress. With Secretary Mayorkas 
coming before your committee tomorrow, June 17, it is my hope that he 
can address this. I am also respectfully requesting a meeting to 
clarify the role that each agency tasked with ensuring the protection 
of Members of Congress fulfills including, but not limited to, the 
United States Capitol Police, the Transportation Security 
Administration, and the Federal Air Marshal Service.
            Respectfully,
                               Congresswoman Maxine Waters.

    Chairman Thompson. I want to thank the Secretary for his 
testimony and the Members for their questions. The Members of 
the committee may have additional questions for the Secretary 
and we ask that you respond expeditiously in writing to those 
questions. The Chair reminds Members that the committee record 
will remain open for 10 business days. Let me thank you again, 
Mr. Secretary. You have gone almost 3 hours. So, thank you very 
much. Without objection, the committee stands adjourned.
    [Whereupon, at 11:13 a.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

  Questions From Chairman Bennie G. Thompson for Alejandro N. Mayorkas
    Question 1. The mission of the Countering Weapons of Mass 
Destruction Office (CWMD) is to lead DHS efforts and coordinate with 
domestic and international partners to safeguard the United States 
against chemical, biological, radiological, nuclear, and health 
security threats. However, the relatively new Office, established in 
2018, has struggled to manage its responsibilities, with biodetection 
being one of the most prominent examples of the Office's struggles, and 
previous leadership issues within CWMD leading to low employee morale 
and high attrition rates.
    Mr. Secretary, will you commit to taking a thorough look at the 
challenges within CWMD, and report to this committee, within the year, 
your plans to address them?
    Question 2. Mr. Secretary, CWMD also houses the Department's chief 
medical officer. However, there is considerable debate over whether the 
officer's placement serves the needs of the Department and the public. 
In the weeks following the hearing on June 17, 2021, DHS officials have 
proposed transferring the CMO to another unit within DHS. Is it your 
view that the CMO should transfer to another unit within CWMD? Please 
describe your vision for the Department's CMO, and include details 
about the operations, goals, and structure you envision for the CMO's 
office going forward.
    Answer. As Secretary Mayorkas stated during the May 26, 2021, House 
Appropriations Homeland Security Subcommittee hearing, the medical and 
public health functions of the Department are too fractured. In light 
of the lessons learned throughout the COVID-19 pandemic, the Secretary 
directed the Department to examine the organizational alignment of our 
medical and public health functions to determine whether a different 
structure would better serve the Department's Countering Weapons of 
Mass Destruction Office (CWMD) mission, leadership, and workforce.
    In accordance with the Countering Weapons of Mass Destruction Act 
of 2018, the U.S. Department of Homeland Security (DHS) CMO resides 
within CWMD and serves as the principal advisor to the Secretary of 
Homeland Security, Assistant Secretary for CWMD, the Federal Emergency 
Management Agency (FEMA) Administrator, and DHS senior leadership on 
medical and public health issues related to natural disasters, border 
health, pandemic response, acts of terrorism, and other man-made 
disasters.
    The Secretary is considering options to help define the vision, 
structure, and other details of the CMO position and the Department's 
medical and public health functions. Secretary Mayorkas looks forward 
to continuing to work with Congress on the path forward.
   Questions From Honorable Josh Gottheimer for Alejandro N. Mayorkas
    Question 1. Why did the National Strategy for Countering Domestic 
Terrorism take such a light touch when it comes to social media and 
tech?
    Question 2. How do you plan to address this clear gap in the 
strategy, and what steps will DHS take to ensure that these platforms 
do not remain breeding grounds for domestic terrorism?
    Answer. While protecting U.S. civil rights and civil liberties, we 
must combat domestic terrorism in all forms. Domestic terrorism poses 
the most lethal and persistent terrorism-related threat to our country 
today, particularly by white-supremacist, anti-government, and anti-
authority violent extremists. In June 2021, President Biden released 
the first-ever National Strategy for Countering Domestic Terrorism to 
address this National security challenge and improve the Federal 
Government's response. The strategy provides a Nation-wide framework 
for the U.S. Government and partners to understand and share domestic 
terrorism-related information; prevent domestic terrorism recruitment 
and mobilization to violence; disrupt and deter domestic terrorism 
activity; and confront long-term contributors to domestic terrorism, 
while embracing the protection of civil rights and civil liberties as a 
National security imperative.
    Strategic Goal 2.2 of the National Strategy for Countering Domestic 
Terrorism specifically addresses the prevention of on-line 
radicalization, recruitment, and mobilization of individuals by 
domestic terrorists and includes assisting technology companies and 
platforms in developing strategies for establishing and enforcing their 
terms of service. This strategy reflects the long-standing engagements 
that have already been taking place between Federal agencies and the 
technology sector on terrorism. For example, DHS and its partners 
regularly engage with social media companies as well as the multi-
stakeholder nongovernmental organization Global Internet Forum to 
Counter Terrorism (GIFCT), founded in 2017 by Facebook, Microsoft, 
Twitter, and YouTube. Most notably, DHS has participated in the 
Content-Sharing Algorithms, Processes, and Positive Interventions 
working group which aims to build dialog across industry, Government, 
and civil society about the tech sector's use of automation and content 
recommendation processes, as well as best practices on positive online-
to-offline interventions.
    In addition to regularly attending multilateral, public-private 
partnerships like GIFCT, this year alone the Center for Prevention 
Programs and Partnerships (CP3) has hosted and participated in more 
than 70 engagements working with technology companies to find solutions 
for preventing on-line radicalization to violence. Since September 
2020, CP3 has hosted 3 Digital Forums, which are virtual conferences 
for speakers and attendees from technology companies and platforms, 
civil society, governments, and researchers that cover topics from on-
line gaming to health and well-being to help highlight the risks, 
trends, and solutions. These events, attended by hundreds of 
participants from around the world, showcased how technology can 
exacerbate risk factors associated with the radicalization of 
individuals via on-line platforms.
    DHS will continue to collaborate across the global, multi-
stakeholder setting to address the recruitment and radicalization to 
violence of domestic terrorism on-line while remaining committed to the 
Constitutionally-protected freedoms of expression, association, and 
free exercise of religion, among others. In addition to our on-going 
engagement with stakeholders, DHS is developing ways to foster and 
cultivate digital literacy to educate the public on understanding and 
reading digital content with a focus on critical thinking and source 
judgment. These efforts will help individuals maintain awareness and 
improve safe social media practices, while building resiliency and 
reducing the risk of radicalizing to violence. DHS is further exploring 
partnerships with the private tech sector and civil society to better 
enable our understanding of the domestic terrorism threat and our 
ability to address new related threats as they emerge.
    Question 3. Secretary Mayorkas, given that the agencies did not 
meet the statutory mandate, how did this report inform the Department's 
funding requests for countering domestic terrorism?
    Question 4. When can policy makers expect a complete accounting for 
the acts of domestic terrorism as mandated by the NDAA?
    Answer. In January 2021, President Biden directed his National 
security team to lead a comprehensive review of U.S. Government efforts 
to address domestic terrorism. The review was rooted in the Joint 
Comprehensive Threat Assessment on Domestic Violent Extremism, provided 
by the intelligence and law enforcement communities. An unclassified 
summary, Domestic Violent Extremism Poses Heightened Threat in 2021, 
was released in March 2021. This assessment was followed by the 
completion of the National Defense Authorization Act (NDAA) mandated 
report, which was provided by DHS and the Federal Bureau of 
Investigation (FBI) to Congress in May 2021. This report included a 
strategic intelligence assessment and data on domestic terrorism, 
including an appendix that included 10 years of data on domestic 
terrorism incidents. The finalization of the NDAA report was but one 
baseline source of inputs informing I&A's efforts to increase our 
capabilities to conduct domestic terrorism, as efforts in this space 
had been underway since the publication of DHS's Strategy for 
Countering Terrorism and Targeted Violence in 2019.
    Subsequently, the Biden administration released the first-ever 
National Strategy for Countering Domestic Terrorism in June 2021 to 
address this threat to National security and improve the Federal 
Government's response. The strategy provides a Nation-wide framework 
for the U.S. Government and partners to understand and share domestic 
terrorism-related information; prevent domestic terrorism recruitment 
and mobilization to violence; disrupt and deter domestic terrorism 
activity; and confront long-term contributors to domestic terrorism, 
while embracing the protection of civil rights and civil liberties as a 
National security imperative.
    Collectively, the strategic guidance provided by the White House, 
coupled with the results of the NDAA-mandated report and the assessment 
of the domestic terrorism threat, will help prioritize DHS efforts to 
counter threats of domestic terrorism and targeted violence; inform 
Department decision-making; and be utilized to support and inform 
future budgetary and funding requests for countering domestic 
terrorism.
    Question 5. What steps is the Department taking to ensure that all 
acts of domestic terrorism are accounted for and tracked, to accurately 
illustrate trends, help understand the threat, and appropriately 
allocate resources?
    Answer. As FBI and DHS noted in the November 2020 report on 
Domestic Terrorism Definitions, Terminology, and Methodology, which we 
jointly prepared to satisfy a requirement in the 2020 National Defense 
Authorization Act for Fiscal Year 2020, Pub. L. 116-92, tracking of 
domestic terrorism incidents Nation-wide has long been a challenge for 
the Federal Government as there is no mandatory requirement that 
directs State and local law enforcement agencies to report criminal 
activity that may be racially or ideologically motivated. Nonetheless, 
DHS has moved forward with several initiatives to baseline the threat, 
both internally and with our partners.
    Our second report to satisfy the NDAA, the joint FBI and DHS-
authored Strategic Intelligence Assessment and Data on Domestic 
Terrorism provided to the Congress in May, contained a list of jointly 
agreed-upon domestic terrorism incidents over the last 10 years. The 
DHS Office of Intelligence and Analysis (I&A) has also internally 
continued to track domestic terrorism incidents from a variety of 
sources--including open sources and from our partners in the field--to 
baseline activity in fiscal year 2021. Fourteen (14) analysts within 
I&A's Counterterrorism Mission Center have been organizationally 
aligned into a Domestic Terrorism Branch with responsibilities to 
perform baseline analysis by identifying trends in domestic terrorism 
incidents and work to develop internal databases to inform their 
analysis.
    DHS is also actively engaged in enacting programs, policies, and 
efforts outlined in the White House's National Strategy for Countering 
Domestic Terrorism, released June 2021, to bolster the Federal 
Government's understanding and guide its response to the threat of 
domestic terrorism--which recognizes the importance of identifying new 
data sources to integrate into our existing tracking mechanisms, 
ensuring a more holistic view of the threat. Future stakeholders and 
partners--including State, local, Tribal, territorial, private-sector 
partners, and academia--all possess data and expertise that can assist 
in our analysis, and align our internal strategies to address the 
threats of domestic terrorism.
    Questions From Honorable Clay Higgins for Alejandro N. Mayorkas
    Question 1. With a simple yes or no, do you acknowledge that the 
number of documented border crossings is currently the highest it's 
ever been in the past 2 decades?
    Answer. In May 2021, there were 172,627 encounters of undocumented 
migrants attempting to cross the southwest land border between ports of 
entry. That was the highest number of encounters since April 2000 
(180,050). However, the number of total encounters does not correspond 
to the number of unique individuals CBP encounters. The large number of 
expulsions under Title 42 authority during the pandemic has contributed 
to a larger-than-usual number of migrants making multiple border 
crossing attempts, which means that total encounters overstate the 
number of unique individuals arriving at the border.
    Question 2. Why would the Biden administration decrease the CBP 
budget during this time of crisis?
    Answer. The fiscal year 2022 President's budget provides funding to 
sustain and strengthen U.S. Customs and Border Protection's (CBP) most 
critical programs and capabilities in each of CBP's mission areas. The 
planned resources emphasize border security, enforcement, and 
administration of our immigration laws, preventing terrorism, and 
enhancing security. The President's fiscal year 2022 budget includes 
$14.6 billion in net discretionary funding for CBP, including $163.2 
million to establish a permanent funding source to continue contracted 
health care services at U.S. Border Patrol stations and ports of entry 
along the Southwest Border; $87.0 million for various expansion and 
renovation projects at U.S. Border Patrol facilities; $41.4 million to 
fortify the Air and Marine Fleet; $35.0 million for procurement and 
deployment of border surveillance technology; $31.1 million to support 
contracted services (transportation and guard services) necessary to 
support the movement of detained noncitizens from the Southwest Border; 
and $9.1 million to hire 125 additional Border Patrol Processing 
Coordinators and associated Mission Support personnel.
    Question 3. Do you believe that if the President and Vice President 
visited the border and took the time to hear from CBP officers that 
they need more help, that then they'd understand how important it is to 
fund additional officers in the DHS budget?
    Answer. The Secretary accompanied Vice President Harris to the 
Southwest Border on June 25, 2021, to receive operational briefings at 
the Paso del Norte Port of Entry and the El Paso Border Patrol Station. 
They met with U.S. Border Patrol and Office of Field Operations local 
leadership and community leaders to discuss on-the-ground conditions 
and the root causes of migration. Vice President Harris and the 
Secretary also discussed the Vice President's continuing efforts to 
address the root causes of migration from El Salvador, Guatemala, and 
Honduras, as well as the need for Congress to pass urgently needed 
immigration reform.
    Staffing, technology, and infrastructure all play roles in border 
security. Regarding CBP staffing levels, CBP is currently staffed with 
19,499 Border Patrol agents, which is 99.7 percent of the fiscal year 
2021 enacted number of agents, as well as 25,856 CBP officers which is 
also 99.7 percent of the enacted number of officers appropriated by 
Congress and supported by user fees. Both CBP officers and Border 
Patrol agents work tirelessly to protect the border and I strongly 
support their work.
    Question From Honorable Michael Guest for Alejandro N. Mayorkas
    Question. When reviewing DHS's budget priorities, I noticed that 
the amount requested to confront climate change and disaster challenges 
is over 16 times the amount requested for investing in modern border 
security ($19.4 billion vs. $1.2 billion). With confronting climate 
change as the highest funded priority in your budget, and modern border 
security trailing the bottom, could you elaborate on how the 
administration came to this request instead of using precious resources 
to address other issues our Nation is currently facing? I am concerned 
that the Department of Homeland Security's budget request only 
reinforces what we already knew--that the administration is not 
prioritizing a secure border and a secure homeland and is leaving us 
vulnerable to numerous threats.
    Answer. Safeguarding the American people is the highest priority 
for the Department. The fiscal year 2022 President's budget provides 
funding to sustain and strengthen U.S. Customs and Border Protection's 
(CBP) most critical programs and capabilities in each of CBP's mission 
areas. The planned resources emphasize border security, enforcement, 
and administration of our immigration laws, preventing terrorism, and 
enhancing security. The President's fiscal year 2022 budget includes 
$14.6 billion in net discretionary funding for CBP, including $163.2 
million to establish a permanent funding source to continue contracted 
health care services at U.S. Border Patrol stations and ports of entry 
along the Southwest Border; $87.0 million for various expansion and 
renovation projects at U.S. Border Patrol facilities; $41.4 million to 
fortify the Air and Marine Fleet; $35.0 million for procurement and 
deployment of border surveillance technology; $31.1 million to support 
contracted services (transportation and guard services) necessary to 
support the movement of detained noncitizens from the Southwest Border; 
and $9.1 million to hire 125 additional Border Patrol Processing 
Coordinators and associated Mission Support personnel.

                                 <all>
</pre></body></html>
